<html>
<title> - FAITH BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





    FAITH BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 12, 2004

                               __________

                           Serial No. 108-152

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-157                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            J. Marc Wheat, Staff Director and Chief Counsel
               Elizabeth Meyer, Professional Staff Member
                         Nicole Garrett, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 12, 2004.................................     1
Statement of:
    Carrasco, Rudy, executive director of the Harambee School, 
      Pasadena, CA, and Nueva Esperanza, Inc., and Esperanza USA; 
      Lee de Leon, Templo Calvario; Jeff Carr, executive 
      director, the Bresee Foundation............................     9
    Phillips, Keith, president, World Impact; Doug Gold, 
      executive director, Jewish Big Brothers and Big Sisters; 
      John Baker, Celebrate Recovery; Steve Allen, Salvation Army 
      of southern California; and Tim Hooten, executive director, 
      Office of Ministry and Service, Azusa Pacific University...    53
Letters, statements, etc., submitted for the record by:
    Allen, Steve, Salvation Army of southern California, prepared 
      statement of...............................................    77
    Baker, John, Celebrate Recovery; Steve Allen, Salvation Army 
      of southern California, prepared statement of..............    69
    Carrasco, Rudy, executive director of the Harambee School, 
      Pasadena, CA, and Nueva Esperanza, Inc., and Esperanza USA, 
      prepared statement of......................................    12
    de Leon, Lee, Templo Calvario, prepared statement of.........    21
    Gold, Doug, executive director, Jewish Big Brothers and Big 
      Sisters, prepared statement of.............................    64
    Phillips, Keith, president, World Impact, prepared statement 
      of.........................................................    57
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5

 
    FAITH BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES

                              ----------                              


                       MONDAY, JANUARY, 12, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                   Los Angeles, CA.
    The subcommittee met, pursuant to notice, at 11:30 a.m., at 
the Los Angeles Christian School, 2003 East Imperial Highway, 
Los Angeles, CA, Hon. Mark E. Souder (chairman of the 
subcommittee) presiding.
    Present: Representative Souder.
    Staff present: Elizabeth Meyer, professional staff member 
and counsel; and Nicole Garrett, clerk.
    Mr. Souder. The subcommittee will now come to order.
    I want to thank all of you for being here today. And I want 
to thank the Watts School from World Impact for hosting us 
today for greeting us out at the door and receiving all the 
visitors to their school here today.
    It is a privilege to be back here. I visited in 1992 just 
after the riots were here in Los Angeles as well as the World 
Impact facility in Newark. That was back when I was a staffer 
for then Senator Dan Coats. And the first time I was in was up 
at the Harmby School and other places was somewhere around 1985 
when I was a staff director of the Children, Youth and Family 
Committee in the House of Representatives. Since then I have 
been elected to Congress, and this is part of a series of 
hearings.
    I am going to first read a formal statement for the record. 
We have a recorder here who will be taking down everything that 
we say today. It will be published in the form of a hearing 
book and then part of a larger report on faith-based that we 
are doing around the country.
    Good morning. And thank you for joining us today as we 
continue our discussion of the role of faith-based 
organizations in the provision of social services.
    I left behind some frigid weather in my hometown of Fort 
Wayne, IN, so I am especially glad to be here in Los Angeles. 
About 5 of our days equal 1 of these days in temperatures.
    Many people across this country have a specific image of 
Los Angeles; that of glitz and glamour and movie stars and the 
image that comes to mind is not that of the less fortunate. But 
Los Angeles, as in every other city, has many individuals who 
are not living a fast and privileged life. I am certain that 
our witnesses today will help us see the true picture of Los 
Angeles, where the needs are as well as which organizations and 
individuals are working to meet those needs.
    Scores of dedicated men and women open their hearts and 
homes to the less fortunate each and every day. They do not do 
this for the glory of public recognition or for the money, but 
for the simple fact that their faith calls them and demands 
them to action. They are committed to improving the lives of 
their neighbors no matter the sacrifice to their own safety and 
comfort. Often their only reward, which they will tell you is 
the best reward, is the knowledge that they have restored hope 
to someone who had been suffering.
    The men and women who run the countless faith-based social 
services organizations in neighborhoods all across the country 
are often the only people willing to tackle the tough problems 
because frequently the rest of us take an out-of-sight out-of-
mind approach to issues that make us uncomfortable.
    If in the United States we had an unlimited amount of 
money, we would be able to fund every organization that is 
effectively providing social services. The hard reality is that 
we do not have unlimited resources. So we have to find a way to 
get the dollars we do have into the hands of them who are most 
effective in the neighborhood. Frequently, that agency is a 
faith-based organization.
    Leaders of many of the faith-based agencies I have had the 
privilege to visit tell me they are successful because they 
look beyond immediate need. Their focus is helping the client 
regain hope and changing a life. Fast fixes are not acceptable 
to these agencies. These men and women truly make a difference 
not only in the life of the client, but also in the community 
as a whole.
    We need to determine how we can best encourage and support 
the work that they do without asking them to compromise their 
beliefs. We have been having this discussion in Washington for 
quite some time. What I find to be the most frustrating is the 
tendency to lose sight of the reason we are having the 
discussion in the first place.
    We know that faith-based organizations are effectively 
transforming lives and communities. Where the discussion gets 
bogged down is in the legal questions. We need to refocus the 
discussion on what makes a faith-based organization successful? 
What is it that makes them effective? The fact that faith-based 
organizations are effective is the reason this discussion began 
in the first place. In other words if the legal requirements 
make it so they are not as effective, then the argument of why 
do not they change the legal requirements so that they can 
still be effective does not work.
    It is time to listen to all the providers tell us how we 
can best assist them in their work. I doubt that they think 
government strings and bureaucratic red tape are something that 
you actively seek. I believe that one of the best ways we as 
legislators can help is not by giving you more government 
strings to deal with, but by helping to facilitate new 
relationships among the providers of social services and the 
foundations that provide financial and technical assistance to 
faith-based and community organizations.
    Today we have the great opportunity to talk with providers 
of a range of faith-based services. We need to understand how 
the unique element of faith impacts the success and structure 
of these programs.
    It is also important that we understand how your programs 
transform lives by building self-confidence and self-esteem. 
Over the last several months we have heard from faith-based 
providers in: San Antonio, TX; Nashville, TN; Chicago, IL; 
Charlotte, NC; here today in Los Angeles; we will be in 
Colorado in 2 weeks.
    Our witnesses today represent just a small fraction of the 
countless faith-based organizations that are meeting the needs 
of Los Angeles. I expect that our witnesses today will provide 
us with many valuable insights into their work and the needs of 
the community. Most importantly, they will help us identify 
areas and methods by which the Government can best assist 
community organizations of all types provide the best possible 
care for people in need. I look very much forward to your 
testimony.
    First I need to do a couple of procedural matters for the 
committee.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record. That any answers to written questions provided by the 
witnesses also be included in the record. Without objection, it 
is so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members and witnesses may be 
included in the hearing record, and that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    Let me briefly describe a little bit how we are going to 
conduct the hearing and what the hearing is beyond the more 
formal statement.
    This is a Government oversight committee. The primary 
responsibility of this subcommittee is narcotics; about half of 
our staff works with narcotics. And there we do legislation as 
well as oversight of the ONDCP and a lot of that. We also have 
a series of other government agencies that we oversee; 
Department of Justice, Department of HHS, Department of 
Education and the Office of Faith-Based Initiatives.
    I have had a long interest in this subject. My work in the 
House and Senate staff prior to this was one of the reasons I 
ran for Congress, because I believed that we were not spending 
more money and we were not going to be spending a lot more 
money in social services and that many of the things that would 
be done in the private sector gave an additive and, in fact, 
were different and we needed to figure out how we could better 
utilize and more effectively invest in that sector of the 
community. It is one of the things that my boss, Dan Coats, 
initiated in the Senate and that his former speechwriter and 
policy director Mike Gerson, who is now the President's 
speechwriter, many of the people who are on our staff are now 
running these initiatives over at the White House. And we are 
trying to implement as best we can.
    I, myself, even though not as part of this committee have 
carried in the House the four major amendments that have passed 
that implemented the faith-based things prior to President Bush 
getting elected. So, for example, in Aid to Families With 
Dependent Children that allowed faith-based organizations to 
apply for those grants. Then Senator Ashcroft and Senator Coats 
carried in the Senate side, I carried down in the House side. 
Similar in Juvenile Justice. Similar in Drug Treatment and 
other programs we have tried to expand faith-based 
organizations. This is separate from the White House faith-
based initiative. These things are being done legislatively.
    But what has happened in that is we have gotten into lots 
of debates, which we will touch on today, about hiring 
practices, about a lot of the difficult questions that you get 
into that make many faith-based organizations back up. Quite 
frankly, I've had my own doubts working this through as to 
which is going to wind up driving or helping. Is it going to 
corrupt the faith-based organizations more than the gain they 
get? And we need to work that through. But part of what has 
been lost in this whole debate is why we got into the faith-
based argument in the first place. And that was we have not 
increased in real dollars, we have actually decreased, whether 
we have Democratic Governors or Republican Governors, whether 
you have a Democratic Congress or a Republican Congress, there 
is not more dollars and yet all of us believe that the problems 
are increasing. So how do we fix it?
    So what we are doing with this series of hearings, and we 
will be doing a major report, is trying to talk to people at 
the grassroots, get an idea for the diversity of faith-based 
groups, what some of their challenges are, zero in on some of 
the policy questions.
    Now, this is an oversight committee. So one of the things 
we do at the beginning is we have to have people swear or 
affirm, whatever you are comfortable with, that your testimony 
is true. So that's our first step.
    And you have seen this full committee in Washington a lot. 
Congressman Waxman is the Democratic leader of this committee. 
We are good friends and it does not mean we always agree on 
things, but we have been through some very acrimonious periods 
since the Republicans took over Congress, much of through this 
committee.
    So, for example, things like the FBI files, Travelgate, 
White Water, China, Waco, things that you saw on TV, those 
witnesses were doing the same thing I am going to ask you, and 
that is to uphold, and only a few have ever been prosecuted for 
perjury, and I hope that does not happen at a faith-based 
hearing, but that is why we go through this is process. This is 
an oversight hearing where we see whether the laws are being 
implemented the way Congress passed the laws.
    We have in this subcommittee, even though we have our 
disagreements from time-to-time and we have some disagreements 
on this issue as to how to implement it, normally you could not 
have hearings without multiple members here. But in our 
committee we have a good working relationship between the 
ranking democrat, Elijah Cummings, who heads the Black Caucus 
and myself so that we can do these hearings without objection 
from either side and move through the committee process, which 
enable us to have a lot more field hearings than if you have to 
arrange for multiple members and do that. And we always 
accommodate any witness needs, and they know we are having good 
balanced debates.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T4157.001
    
    [GRAPHIC] [TIFF OMITTED] T4157.002
    
    [GRAPHIC] [TIFF OMITTED] T4157.003
    
    [GRAPHIC] [TIFF OMITTED] T4157.004
    
    Mr. Souder. So with that as an introduction, the first step 
here is to administer the oath. So if you will raise your right 
hands. Stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Now you will be recognized for a 5 minute opening 
statement. Your full statement will be inserted into the 
record. Then I will ask questions. If you want to offer 
additional testimony later on for the hearing book record, you 
may do that as well.
    And we will start with Mr. Rudy Carrasco, executive 
director of the Harambee School in Pasadena, CA.

STATEMENTS OF RUDY CARRASCO, EXECUTIVE DIRECTOR OF THE HARAMBEE 
SCHOOL, PASADENA, CA, AND NUEVA ESPERANZA, INC., AND ESPERANZA 
    USA; LEE dE LEON, TEMPLO CALVARIO; JEFF CARR, EXECUTIVE 
                DIRECTOR, THE BRESEE FOUNDATION

    Mr. Carrasco. Thank you, Mr. Chairman.
    It's a privilege to be here. I'm representing Nueva 
Esperanza and also I'm the executive director of the Harambee 
Christian Family Center; two entirely different entities. I am 
here at the request of Nueva to read their testimony into the 
record and also willing to answer some questions on behalf of 
our own work in Pasadena.
    Esperanza USA is a national association dedicated to 
serving the needs of Hispanics in America. Founded in 2003 as a 
wholly owned and operated subsidiary of Nueva Esperanza, Inc., 
Esperanza USA hosts the National Hispanic Prayer Breakfast and 
houses all of Nueva Esperanza's national operations.
    The largest of all Esperanza USA's national programs is the 
Hispanic Capacity Project. Established with receipt of the 
second largest grant awarded from the HHS' Compassion Capital 
Fund, the Hispanic Capacity Project provides technical 
assistance to Hispanic faith-based and community organizations 
nationwide helping them identify and meet the needs in their 
communities. During the first year of the grant, operations 
were established in Central and southern Florida, southern 
California, New York City, Philadelphia, northern and southern 
New Jersey. Over 150 faith-based organizations are 
participating in the project. These organizations collectively 
operate over 215 separate service ministries spanning the range 
of social and human delivery.
    The Hispanic Capacity Project forms the foundation for all 
other national initiatives.
    Other national programs include Hogares de Esperanza (Homes 
of Hope), Esperanza USA's national home building initiative and 
Pacto de Esperanza (Pledge of Hope), the first national HIV/
AIDS initiative targeted at the Hispanic faith community. 
National mortgage counseling and employment programs are 
currently being developed.
    Nueva Esperanza, Inc., Esperanza USA's parent organization, 
is the largest Hispanic faith-based community development 
corporation in the United States. Founded in 1987 by Reverend 
Luis Cortes together with Philadelphia's Hispanic Clergy, Nueva 
operates an impressive array of programs addressing the 
problems faced by the Hispanic community.
    Headquartered in Philadelphia, Nueva operates an impressive 
array of social service and educational programs including a 
charter high school, a junior college and a campground for 
inner-city children. Nueva has built and rehabilitated over 100 
single-family homes, helped more than 1,700 families obtain 
their first mortgage and enrolled over 600 individuals in 
Nueva's job training programs. A $28 million economic 
development project is underway to create a Latino Corridor in 
north Philadelphia transforming the vacant lots and abandoned 
buildings into a vibrant commercial corridor surrounded by new 
and renovated homes.
    A tribute to the vision of its leadership, Nueva Esperanza 
has become one of the leading voices for Hispanic Americans. In 
developing programs targeted to address the many unmet needs in 
Philadelphia's Hispanic community, Esperanza USA has become a 
leader in building Hispanic owned institutions nationwide.
    The overriding lesson of the past 20 years of providing 
services in Philadelphia and this past year establishing 
national operations and working to build the capacity of 
Hispanic faith-based and community organizations across the 
country is, simply but very clearly, that public funds can be 
used effectively by the faith community to deliver services to 
serve the needy and further serve the public good. When the 
faith community and the government are brought together as 
partners, services are delivered more efficiently to those in 
need. And, most importantly, service delivery takes place well 
within the confines of the law.
    An equally important lesson is that a thorough educational 
process is essential to educate the faith community on the 
process and the specifics required to adhere to the confines of 
the law.
    The Hispanic faith community is a newcomer to the world of 
Federal funds. In many cases services have been funded in the 
past solely by private funds. The need to establish and 
maintain the separation of church and State is often a new 
concept and a new reality for many.
    The central purpose of the educational process is to make 
clear the limits of and restrictions that accompany receipt of 
Federal resources. The faith community needs to be clear that 
federally supported faith-based initiatives are not about 
proselytizing and religious education. Potential program 
participants can then make an educated choice to participate or 
not. Should they feel their service delivery would be 
compromised by restrictions, they can choose not to 
participate. Should they believe that the good that can be done 
with the Federal funds outweighs the restrictions, they may 
choose to participate.
    This educational process needs to be two-fold, however. The 
largest obstacle encountered in recent years is the 
administrative uncertainty about the realities of service 
delivery within the confines of separation of church and State. 
Thus, the second fold of the educational process is to educate 
the various bureaucracies about the realities and genuine 
benefits of federally funded faith-based programs. 
Bureaucracies and bureaucrats by definition are risk averse and 
subject to repeating past patterns of behavior that have not 
raised concern or criticism. A continued educational process 
illustrating the success of federally funded faith-based 
programs and the ease with which the law can be followed is 
essential if we are to continue to reach those who have been 
left behind by all previously existing agencies and structures.
    A second very real obstacle faced most especially by the 
Hispanic faith community is that ours is a system stacked 
against those who are not as sophisticated as others with past 
relationships and experience working with government. Many of 
the most effective agencies are affiliated with small 
congregations closely connected to the local community, in 
touch with individual families' lives; who might be in need but 
too proud to come in for help.
    This reality underscores the imperative of finding 
intermediaries, such as Esperanza USA, who have legitimacy with 
their constituencies, intermediaries that can navigate the 
intricacies of Federal rules and guidelines. As we move forward 
it is critical to identify and ensure access for intermediaries 
who understand Federal realities and can act as broker on 
behalf of those unable to compete. It is equally critical that 
as intermediaries are identified that processes are in place to 
assure that these intermediaries have true grassroots 
operations rather than the more traditional Washington-based 
networks.
    A third obstacle faced primarily by the Hispanic faith 
community is the experience of being the ``new kid on the 
block.'' Other minorities and constituencies have decades of 
experience receiving Federal funds. With little, if any, 
increase in funding availability, bureaucracies are faced with 
a choice--either continue to fund those who have been funded 
and performed adequately in the past or reduce their funding 
and take a chance on the ``new kid,'' essentially untested and 
relatively unknown. More than just our original discussion of 
the need to educate the bureaucracies, very real policy 
decisions must be made at the highest levels of government to 
support the work of those serving the ``new kids on the 
block.''
    Thank you.
    [The prepared statement of Mr. Carrasco follows:]

    [GRAPHIC] [TIFF OMITTED] T4157.005
    
    [GRAPHIC] [TIFF OMITTED] T4157.006
    
    [GRAPHIC] [TIFF OMITTED] T4157.007
    
    [GRAPHIC] [TIFF OMITTED] T4157.008
    
    [GRAPHIC] [TIFF OMITTED] T4157.009
    
    [GRAPHIC] [TIFF OMITTED] T4157.010
    
    Mr. Souder. Thank you very much.
    Now we will hear from Reverend Lee de Leon, Templo Calvario 
a Community Development Corp. in Santa Ana, CA.
    Rev. de Leon. Thank you, Mr. Chairman. It is a pleasure to 
be here with you today to share the many successes of the vast 
array of Templo Calvario's ministries.
    Templo Calvario is a congregation based in the city of 
Santa Ana, CA. Charisma Magazine has recently recognized Templo 
Calvario as the largest Hispanic church in America. Over 10,000 
individuals weekly visit our church to worship and/or to 
receive assistance from our various outreach ministries.
    Templo Calvario has a long history of compassion. For over 
75 years, the church has ministered to families in need in a 
variety of ways. Although the church is located in the city of 
Santa Ana, its benevolent efforts have reached beyond its 
borders to other cities, States and countries. Cities like 
Miami, FL have an outreach center planted by one of Templo 
Calvario's inner city missionaries reaching out to the poor of 
that city. Ensenada, Mexico and Buenos Aires, Argentina have 
other missionaries doing the same thing.
    This long history of compassion comes as a result of the 
thinking that permeates every heart and mind of Templo 
Calvario. Regularly you hear members greeting each other with, 
``Soy bendicido, para bendecir''--``I am blessed, to bless 
others.''
    Obras de Amor. In 1980, we took steps to formalize our 
benevolent work by establishing a ministry called Obras de 
Amor--Works of Love.
    Obras de Amor weekly: Manages a warehouse that procures and 
distributes over 90 tons of groceries and other products; 
provides counseling, referrals, groceries, emergency assistance 
and other services to over 250 families; provides groceries, 
clothing, furniture and on occasion funding to a network of 
over 60 churches and community-based organizations.
    Angel arrived at our church hungry and unemployed. He was a 
single 19 year old alcoholic that needed more than food and a 
referral; he needed direction in his life. He not only received 
assistance, but he also started volunteering in our warehouse. 
This provided him the opportunity of receiving needed 
counseling and basic life skills training. Today Angel is no 
longer drinking, he is married and working as an apprentice 
with a plumbing company.
    The Kingdom Coalition. This network of over 60 churches and 
community-based organizations extends from Los Angeles to San 
Diego. These organizations serve over 80,000 individuals each 
month. These groups provide a multitude of services including 
food distribution to the hungry, counseling, after school 
centers, rehab homes, and much more.
    For the past 2 years we have provided needed training to 
this network with the assistance of the Christian Reformed 
World Relief Committee, Nueva Esperanza and the Compassion 
Capital Fund.
    After School Centers. Templo Calvario operates three after 
school centers in the cities of Garden Grove and Santa Ana. Two 
of these centers are found in high density neighborhoods 
populated by low income Latino and Asian families that live in 
crowded apartment buildings. These centers provide homework 
assistance, tutoring and mentoring for elementary school 
children. They also coordinate wholesome community building 
events that target the families of these children.
    Enrique is a 12 year old that attends our center in the 
city of Garden Grove, that is the Buena/Clinton Center. He was 
having a difficult time with math at school. His parents could 
not provide the help he needed since they do not speak nor read 
English well and have six other children to look after, one 
being a pregnant 15 year old.
    At our center, he was able to get one-on-one tutoring that 
dramatically improved his grades. Not only that, but he has a 
brand new goal; he wants to go to college.
    Other Areas of Service. One is the summer camp. Annually we 
sponsor teens in those neighborhoods we serve by sending key 
teens to camp.
    Back-to-School: Each year we have hundreds of children 
receiving back packs loaded with school supplies and many 
receive assistance with school uniforms.
    Another activity is Holiday of Hope: Over 4,000 children 
receive Christmas toys every holiday season.
    Esperanza is another event that we have not been held in a 
number of years, but this year we are reviving that event. And 
over 100 faith-based and community-based organizations and 
local businesses will gather at the Santa Ana Bowl to host a 
community fair.
    Templo Calvario Community Development Corp. In November 
2002, our board of elders agreed to launch a new corporation 
that would focus on bringing long-term solutions to our 
community. Our elders agreed to birth Templo Calvario Community 
Development Corp. This new corporation will focus on affordable 
housing; business and job creation; education; senior and youth 
programs.
    Since its inception, Templo Calvario CDC has started a 
Charter School with a 120 students. This is a partnership with 
the Santa Ana Unified School District.
    Also the Senior Service Enterprise. Our goal is to have 40 
new jobs created by this new entity. This new company will 
provide home care, transportation and other vital services to 
seniors of our community. The Office of Community Services has 
provided a pre-development grant that is helping us bring this 
business together.
    Project Esperanza. Our goal is to assist 25 groups 
annually. This new effort is providing technical assistance to 
over 25 FBOs and CBOs in our area that service families in the 
Empowerment Zone of the city of Santa Ana. Technical assistance 
provided by We Care America and a grant from the Compassion 
Capital Fund are giving us the support we need to make this 
project a success.
    For many years, Marco Tierrablanca has served the youth of 
Santa Ana by organizing soccer leagues and providing 
fundraising events to these children to help these children buy 
their uniforms. But his greatest desire has been to expand his 
work to the elementary schools of our city.
    Project Esperanza will help him reach this next level of 
service to the youth of our community by helping him form his 
own 501(c)3, establish a formal board, providing training in 
other critical areas and organize a meeting with school 
district officials and Mr. Tierrablanca.
    Some of the obstacles we have faced. For the most part, our 
city and county partnerships are developing well. But we're 
still challenged by some agencies at the local level that find 
it difficult to work with faith-based organizations. Every 
government employee has their own interpretation of 
``separation of church and State'' and because some do not have 
a handle on it, often we get left out.
    For example, it is interesting that we in the faith sector 
very often are better informed of new Federal funding than 
local funding. I do not understand why we still do not get the 
emails or mailings that other nonreligious groups receive. Very 
often we rely on secondhand information to keep abreast of new 
funding.
    In the early beginnings of the Faith-based Initiative, 
there was talk of expediting the application process to gain 
501(c)3 status. Well, to date things haven't changed, it is 
still slow. Our new CDC is still waiting on final approval 
after many months. This hampers our ability to seek additional 
funding both from both government and private sources.
    Also, can anything be done about the high cost of grant 
writing? So far we've been fortune in this area, but startup 
groups cannot afford the high fees many writers request. I 
would encourage you, Mr. Chairman, to investigate the 
possibility of new funding that would provide training and 
technical assistance to new startups.
    And one of the questions that comes to us regularly is are 
you faith-based or not. And on paper we are not, but we are 
connected to a local church and we believe that is an 
expression of our faith, the work that we do. And I know the 
constant challenge of dealing with those issues.
    And thank you so much.
    [The prepared statement of Mr. de Leon follows:]

    [GRAPHIC] [TIFF OMITTED] T4157.011
    
    [GRAPHIC] [TIFF OMITTED] T4157.012
    
    [GRAPHIC] [TIFF OMITTED] T4157.013
    
    [GRAPHIC] [TIFF OMITTED] T4157.014
    
    [GRAPHIC] [TIFF OMITTED] T4157.015
    
    [GRAPHIC] [TIFF OMITTED] T4157.016
    
    [GRAPHIC] [TIFF OMITTED] T4157.017
    
    [GRAPHIC] [TIFF OMITTED] T4157.018
    
    Mr. Souder. Thank you for your testimony.
    Reverend Carr is executive director of the Bresee 
Foundation Fund.
    Reverend Carr.
    Rev. Carr. Thank you. It is good to be here, Mr. Chairman.
    And I apologize for not having written comments. I was out 
of town this weekend and just found out on Friday afternoon to 
be here. But since I do this for a living, it is not hard for 
me to talk about Bresee Foundation.
    Bresee Foundation is a 22 year old nonprofit organization 
that was established by members of Los Angeles First Church of 
the Nazarene, which is a historic church that has been in 
central Los Angeles for over 100 years. And it was established 
in 1982 by members of that local congregation really to focus 
their outreach and social justice efforts in that local 
neighborhood.
    The name Bresee, he was actually the founding pastor of 
that local congregation in 1985. It was founded in Skid Row Los 
Angeles. He was a Methodist minister who really left the 
Methodist church, ironically, because of his commitment to the 
poor and for some theological distinctions. And really his 
entire focus was to reach out to poor people in Los Angeles.
    In 1902 the church had a home for unwed mothers. It 
provided food and clothing and shelter for the Chinese 
immigrants who were building the railroads in southern 
California at the time.
    And so Monday through Saturday they were working for social 
justice, they were picketing, they were marching. And on 
Sundays they were preaching the Good News of the Gospel that 
people's lives could be different.
    And so Bresee Foundation was born out of a desire to carry 
on that rich tradition and to really enable the church to do 
more than what they thought they had the capacity to do by 
themselves.
    One of their first initial programs, the pastor, Dr. Ron 
Benefield who was a sociologist had a desire to train ministers 
because he had been exposed to churches around this country in 
urban neighborhoods that were in transition, and which our 
neighborhood was. And wanted to train laypeople and young 
pastors to actually figure out how to deal with a church that 
they found themselves in in a community like that.
    I was in the second class of guinea pigs at the Bresee 
Institute which were brought to try and train us. I had come to 
go to seminary and we had a program where you actually took in 
academic course and did a hands-on internship. And the church 
wanted to reach out to youth in the community. They gave me a 
10-speed bicycle and a basketball and sent me to the parks and 
playgrounds. And that was almost 17 years ago.
    At the time the foundation had about a $20,000 budget. And 
it was really a separate organization on paper. Today we have a 
staff of 26 full-time professional staff. Our budget's about 
$1.7 million and we serve about 3,500 people annually. And we 
do that in a number of different ways.
    First of all, we provide education and career development 
programs; everything from homework assistance, after school 
educational programs for young people. We have literacy for 
children who are severely under performing in terms of their 
literacy skills and educational skills in school. All the way 
up through college preparation and college scholarships. And 
about a third of the staff, the professional staff at Bresee 
Foundation, are young people who grew up in the neighborhood 
who have come back we have sent to college. In fact, most of 
those young people I have known since they were 12 or 13 years 
old having been there so long. They are now in their 20's and 
30's.
    We also provide technology training assistance. Given the 
advent of the Internet and the ubiquitousness of technology in 
our society, we provide a state-of-art technology training 
center, a cybercafe for low income adults who do not have 
access to technology to get access to the technology and the 
training. Have everything from basic introduction to computers 
all the way up to documentary film making where young people 
are telling their own stories about our neighborhood rather 
than whatever they get in the homogenized media on network 
television.
    We also provide family support services, everything from 
counseling and case management for families who are 
impoverished connecting them not only to the resources within 
Bresee, but other resources that exist in our community and the 
over 100 community-based and other partnerships that we have to 
be able to get people assistance that they need.
    We also provide leadership in social development training. 
We have a leadership program for young people. We provide 
financial literacy, recreational sports and outdoor adventure 
activities to expose kids to things outside the neighborhood.
    Our mission is very clear. We say in our mission that God 
calls us to offer hope and wholeness and to work toward 
reconciliation and empowerment and justice in our community.
    Our faith is clear, and yet we are non-sectarian. Our 
purpose is not to evangelize in a very strict religious sense 
of the word. Our purpose is to live out our Christian faith and 
to make our neighborhood more like what we believe God wants it 
to be.
    And that goes not only to the personal transformation, but 
to larger transformation in our neighborhood which has led us 
to, actually, on Thursday morning we will have the grand 
opening of a new park. We actually worked with the city of Los 
Angeles. We vacated a public street and used entirely public 
money, local and State dollars and actually some Federal 
dollars that have been passed through, to build an ecology park 
that will not only increase the green space in what's one of 
the park's poorest and green space poorest areas of the entire 
country, but also to do some unique ecological things in terms 
of reducing urban storm drain run-off in terms of how we 
designed the park. And also returning it to the way it would it 
would have been 100 years ago.
    Actually, our neighborhood was a watershed, if you can 
believe in central Los Angeles there was such a thing. But it 
was a watershed. And so we are using all indigenous plants to 
bring the environment back to the way it used to be.
    We also in about 4 months will open a primary care clinic; 
58 percent of the people in our neighborhood are uninsured and 
we have a health care crises here in Los Angeles. And our goal 
is to provide low income children and their adult parents, 
working poor people who are working who are working but do not 
have health insurance, give them access to the health care 
system so they can get preventative and important basic care 
before those medical situations turn into an emergency.
    In terms of our funding, about 40 percent of our dollars 
come from Government grants and contracts. About 35 percent 
from private foundations and corporations. And then about 13 
percent from special events and a mixture of earned income that 
individuals get.
    I would simply say about, oh, when I guess President Bush 
came into office, I think it was about a month after he 
announced his faith-based initiative, I got a phone call from 
someone in Washington actually sort of testing the waters and 
asking me about this whole faith-based initiative. And I must 
say that really since the beginning in some ways I think it's 
been a false dichotamy. I hear the people on the left arguing 
and strenuously debating about the issue of separation of 
church and State, and even some of the folks to the far right 
arguing about that as well. And then people if you move in on 
both sides of that, people who are concerned about various 
other issues. And then I think really, that most of us kind of 
live in between.
    The reality is in some ways the lines between separation of 
church and State have always been blurred in my opinion. I 
think those of us who are doing work in the community who 
receive government funds, we have found a way to navigate those 
things, the ones who have been able to do that without I think, 
compromising who we are and yet maintaining the separation and 
not being sectarian, but at the same time enabling ourselves to 
be able to get the work done that needs to happen in 
communities like ours.
    I think separate 501(c)3 corporations are important, 
because I think the fun of being a minister and being trained 
in theology and trained actually to be a pastor and then 
finding myself in this job, I think the role of the church is 
in some ways different in the traditional sense of a church 
provides a place of worship, a place of spiritual 
accountability, religious education. I think churches, though, 
that set up a 501(c)3 corporations can appropriately set up a 
firewall, if you will, between those explicitly religious 
activities in the sense of sectarian activities but yet still 
have a nonprofit corporation that is driven and motivated by 
living out our faith commitments that enables us to do the 
important work of rebuilding communities and rebuilding the 
lives of people who find themselves in those communities.
    I think really the issues to me are more issues about 
capacity, outcomes and resources. Unfortunately, a lot of 
pastors, God love them, that I know could not manage their way 
out of a wet paper bag. And so I am not sure I want to give 
them money or have the government or anyone else give them 
money, not because of their faith commitment but because I'm 
not sure they would know how to manage those resources if they 
were given to them.
    Second, I think it is really important about outcomes. I do 
not care of you are a secular humanist organization or a faith-
based organization, the critical thing of importance that I 
think government and anyone who is providing funding out to be 
looking at is whether or not people can deliver results that 
they say they are going to deliver. And I think people of faith 
can deliver results. I think they can deliver outcomes. Some 
have the capacity, some need assistance to have that capacity, 
but I think those can be done.
    And then the last thing is resources. I think right now one 
of the greatest challenges is given the priorities of our 
Federal Government and our State governments, the balancing of 
budgets in the State, although you all don't have to balance 
budgets necessarily at the Federal level, but at the State and 
local government level the budgets are being balanced on the 
backs of poor people.
    Bresee Foundation has some government contracts. We lost 
$275,000 in government money this last year because of 
balancing acts, both from the loss of Federal funds that were 
passed through the city, loss of Federal funds that were passed 
through the State, and then those were reduced for us as well. 
And meanwhile, the economy has been in the tank, more people 
are unemployed, more pressure is on poor people and the demand 
for our services and the demand for the kinds of things we are 
doing is going up.
    And so I think we often find ourselves in the crucible of 
trying to meet the demands of people who are living on the 
margins of our society and trying to do that on a shoestring. 
And I think we are pretty savvy, and most faith-based 
organizations that I know are pretty savvy on how to stretch 
those dollars better than a lot of other organizations, and yet 
even us in these times find ourselves faced with really 
difficult decisions about reducing services or finding ways 
that we can be able to maintain those services for people.
    Thank you.
    Mr. Souder. I thank each of you for your testimony and also 
for your work. There is a kind of a series of types of 
questions that I ask, some of which get us into the legal 
questions in defining, some of which are further defining the 
organizations and then a few things that you each raise. Let me 
do kind of some of the technical questions first.
    Can you tell me again, where the Bresee, right?
    Rev. Carr. Yes.
    Mr. Souder. Foundation, it is somewhere here in central Los 
Angeles?
    Rev. Carr. Yes. It is located about a mile and a half west 
of the heart of downtown near Third and Vermont.
    Mr. Souder. And most of your work is done in that immediate 
area?
    Rev. Carr. It is focused in that neighborhood, yes.
    Mr. Souder. What percentage would you say of the people 
that you serve are African-American, Hispanic, other 
backgrounds?
    Rev. Carr. Yes. Our neighborhood is largely Latino 
immigrant. People that have come from Central America and other 
Latin American countries, Mexico, looking for a better life. 
Probably about 70 percent of the people we serve are Latino, 
about 15 to 18 percent are African-American, about 7 to 8 
percent are Asian Pacific Islander and then a mixture of 
everything from caucasian to, you know, the metroplex of the 
world here in Los Angeles.
    Mr. Souder. Are 100 percent low income in that area or some 
middle class?
    Rev. Carr. Yes, in our immediate neighborhood that we 
serve, 44 percent of the people live at or below the poverty 
level. So largely from very low income or just above the 
poverty level, people that would come to our services.
    Mr. Souder. Mr. Carrasco, one of the things we have been 
debating going back and forth, or maybe we will wind up doing 
both if we can get them both in, but either doing a field 
hearing in Philadelphia or Boston. So you have given us a lot 
of information that suggests on top of some other groups why we 
should be looking at Philadelphia and the efforts of the 
organization there.
    Could you tell us a little bit about the family center that 
you work with up in Pasadena as well and how that has really 
changed the neighborhood and how we deal with the fact that 
often when we tackle and get an area turned around, the 
problems move to another area and/or do we solve the problems, 
in fact the area disappears? Which and how do you balance that?
    Mr. Carrasco. Right. We are almost victims of our success 
at the moment. Harambee Center was founded 20 years ago, 1983. 
At the time we had the highest daytime crime rate in southern 
California. And the anecdote is that there was a movie called 
``American Me'' that came out around 1992 with Edward James 
Olmas and that portrayed the rise of the Mexican mafia in the 
California prisons. And the name of the black gang was the BGF, 
the Black Guerilla Family. In real life the BGF was 
headquartered in the house where we now do children's Bible 
clubs and all sorts of activities, where two churches meet.
    John Perkins and his wife moved in there in 1982 after 
dealing with the Klan for 22 years in Mississippi. And through 
their faith they felt they saw God take care of them and 
respond, started there.
    And so the neighborhood was just a wild, wild shooting 
gallery. And you visited in 1985 and then again I think later 
in 1992, and you saw the changes.
    I think you could extend it out. What has happened in our 
community, our efforts yes, but also the police, churches, 
schools, all sorts of people came together. What was important 
was to have a person like Perkins who did this pretty 
courageous thing of buying a home on the corner next to the 
drug dealers. And so we were rallying point, but there were 
many agencies that came together.
    And so we have seen the change. And in Los Angeles, in our 
particular neighborhood, it went from being about 85 percent 
African-American, 10/15 percent Latino to about 55 percent 
Latino now. And in particular, our houses are turning from 
being renter occupied to owner occupied. Housing prices 
throughout southern California have just shot up. And so a lot 
of the families that we work with historically, they used to--
when they would evicted or something crazy would happen in the 
house, they would actually just rent a block away.
    Now what happens is that there is less of that rental stock 
and families simply move. And it is something we have been 
debating in strategic planning as we think about, you know, 
what exactly should Harambee do. Because if and when you come 
and visit, you are going to be kind of shocked because you are 
going to see a lot of lawns that are nice and green and cut, 
neighbors talking to each other. We have worked very hard at 
black and Latino reconciliation. For 7 years John's son Derrik 
Perkins and I walked the streets together and we said besides 
whatever we preach, we are going to demonstrate that African-
American and Latino can work together and live together.
    And so there has been a lot of change there. And a lot of 
the new families are still struggling, especially a lot of 
Latino immigrant families that will tend to have two or three 
families in a home. But a lot of the African-Americans we are 
working with have moved away.
    In this area, if you are familiar with Los Angeles at all, 
there is an eastward movement out toward Riverside where Lee's 
group does a lot of work. Also to Palmdale and Antelope Valley. 
And we have been tracking these over the years because in our 
work our vision is 10 to 15 years of development. A kid does 
not have a father, you can have some programs and, you know, 
they graduate from high school, they are 19 years old and they 
still need somebody. That is why the government understood this 
and came up with the emancipated foster youth concept; a great 
concept. And now churches and other groups need to realize that 
people need to land in families.
    I have a kid who is 22 years old and I thought I was done 
with him when he was 20 and he went to college. The second day 
in college he called me up. He did not want money, he did not 
need anything. But he was hurt deep down, he was afraid and he 
was lost and I was there for him. And I had just written him 
off. I had finished my project.
    So when we are talking about our work at Harambee, long 
term indigenous leadership development that is exemplified by 
the great work of Bresee, we are talking about how we find 
people who are these moving targets. And communities of faith 
do that. I do not have to explain that to you, and that is just 
sort of another checklist of why we need to partner with 
communities of faith.
    I do not know exactly what we are going to do, because the 
process continues in Pasadena. The schools are slowly beginning 
to improve. Crime has gone down. It is a great place to be. We 
are 15 miles from Los Angeles. Every house that gets purchased 
is either a Latino immigrant family or we are seeing more white 
and Asian and other middle class folks who are able to buy 
these $300,000 houses. So we are trying to figure out exactly 
long term what our center is supposed to do.
    There is still a tremendous amount of need. There are still 
a lot of families in pockets that are not going to go anywhere, 
especially because a lot of historic African-American and some 
Latino families own the house, paid it off 20 years ago. And so 
the kids and the grandkids are going to be there. And so that 
is a little bit of the thought there.
    But we are finding, and I do not know who in the region or 
the State, perhaps even L.A. County area is talking about this, 
but I do not think this is Harambee's particular vision at the 
moment. But if I was so inclined, our immediate move, we would 
leverage our nine properties that Dr. Perkins bought and paid 
off, $2 to $3 million worth, we would go buy properties in 
Pamona, in Antelope Valley and we would establish other 
Harambee Centers in those places that do not have the amount of 
social services that Los Angeles has, and that we have. And 
there is tremendous need, but there is a lot of services in his 
area, same with us.
    You have areas with heavy population booms. In the 
Riverside area and in this Palmdale/Lanscaster area that have 
very few services and do not have any of the sort of history or 
the base that we have, they do not have the citywide capacity.
    This is something that we are going to see increasingly 
throughout the country as we see the Latino migration 
continues. You know, whatever happens with this immigration 
bill, I think we are going to continue to see the Latino 
populations and low income Latino populations growing 
throughout the 50 States, as well as heavy movement by African-
Americans.
    So there has to be a way that not just the capacity that is 
built with organizations like ours--I do not even know if this 
is the Government's role--but that somehow our organizations 
are also supportive of other groups in those areas that do not 
have the support to follow through.
    There is one particular detail that was just--I do not know 
if we throw it now or later, that no one every talks about is 
actually a piece of the faith-based initiative that I was most 
excited about. The President talked about not just working with 
reforming the bureaucracies in Washington, but talked about 
getting business and private individuals to give more. So 
public and private; all the attention has been paid on all this 
public money. There is tons of corporate money. You know, how 
does he say it? He said that businesses do not have a church 
and State problem, but they act like it and they use to sort of 
squirm out of their civic or corporate responsibility.
    I have not seen much attention, you know, bully pulpit type 
of attention being paid on that. With individual giving, I know 
that it was really difficult to get it through Congress in 
terms of rate. I do not even know the terminology, but 
increasing the credit or deduction for contributions to 
charitable organizations.
    Harambee Center is entirely privately funded and we have 
been considering this entire initiative. We are very cautious 
historically and even now. But something that has sort of used 
the bully pulpit to encourage businesses, and to encourage 
individuals to give more, that benefits us tremendously.
    And I have been disappointed to not see much attention paid 
there.
    Mr. Souder. The big problem here is how to keep me 
disciplined in the questions. But let me go next to Mr. de 
Leon. Your testimony has been very helpful in clarifying a 
number of things, and I have lots of different questions. If I 
do not get them done here, we will do some followup at another 
point.
    I want to address some of the things that each of you have 
raised, too, but I want to make sure I ask the questions I need 
to get fact-based first.
    Mr. de Leon, you raised a number--is it Reverend?
    Rev. de Leon. Yes. Reverend.
    Mr. Souder. OK. That you raised, particularly toward the 
end. On your 501(c)(3) you said to date things have not changed 
as far as expediting. Where is yours held up?
    Rev. de Leon. I do not know. We have not heard back from 
the IRS. It has been there a number of months.
    Mr. Souder. And is----
    Rev. de Leon. We did receive a little card indicating that 
they had received it, but not more than that.
    Mr. Souder. Did you attend any administration forums out in 
this area on this faith-based initiative.
    Rev. de Leon. Yes, there have been.
    Mr. Souder. And did you attend any of those or did anybody 
from your church attend any of those?
    Rev. de Leon. Attend?
    Mr. Souder. The administration's faith-based forum. And 
when they did that, did they have any assistance there or 
suggestions of how people could put together 501(c)(3)'s?
    Rev. de Leon. I have not attended those sessions, no.
    Mr. Souder. You have not?
    Rev. de Leon. They have filled up pretty quick. But 
basically our attorney just handled us. And the attorney has 
done well, I mean very good work in the past so I do not see 
any problem as far as the application and all. I think it is 
just regular red tape that slowed it down.
    Mr. Souder. One of the things should be that it does not do 
us any good to go around and encourage everybody to form one 
and then have it take so long that they lose enthusiasm. This 
is something which needs to be followed up. I was trying to 
figure out what the deal was.
    Look, I am an unapologetic conservative Republican, so I 
with trepidation ask this question of Reverend Carr. When you 
went to the conference did you go yourself?
    Rev. Carr. Actually, they had one in Los Angeles with the 
Mayor's office, and I was invited to share our experience, more 
I think, to encourage others.
    Mr. Souder. Was it a primary function similar where people 
share their experience or did they have any technical people 
there, any suggestions of what people can do? Has there been a 
followup?
    Rev. Carr. I did see a lot of technical assistance being 
provided that day. I saw it as more of a introductory kind of 
thing to get people to begin to talk about it, at least the one 
that I was at, at the Mayor's office.
    Mr. Souder. You also said can anything be done about the 
high cost of grant writing. One of the things that I'm 
intrigued with, and I would like all three of your reactions to 
this, and why you think something like that has not been done 
before either at the State or local levels, forget Federal for 
right now, or even at the private sector level and whether you 
think if the Federal Government did this whether it would be 
useful?
    When I was in graduate school and most people know two 
things about me in Congress. First off, I am outspoken 
evangelical and second, I'm a Notre Dame Hotdog, which is 
somewhat different from each other but I went to grad school at 
Notre Dame. And in the MBA program one of the things through 
Score and Small Business Centers that you do as part of your 
curriculum because Notre Dame has a requirement for social 
activity in the community as part of getting a degree there, is 
that they have business students go out and as loan 
applications come in, particularly from the urban areas around 
South Bend or Elkhart or compared to Los Angeles, these are not 
urban areas. But they are big urban areas compared to my 
hometown and others.
    You go in and you help people who are looking for small 
business loans and other things. I visited them here in Los 
Angeles. You have Small Business Centers in job development and 
entrepreneurial centers that are usually a mix of government 
funds and private sector funds where as a company wants a 
startup company, they can go rent space in the building. They 
have a shared secretary. They have shared phone systems. And 
then as they get a little bigger, they can move out.
    The question is why have we not done this in the social 
service area? In other words, for grant writing, for example, I 
have been talking to one university in my district about 
getting a building where the social service organizations, 
particularly the smaller ones, could pool rent, could pool the 
secretarial, the copy machines, the fax machines like they do 
in the business area. That students from the local universities 
could come over and volunteer, possibly either get credit, 
whatever, with that. Do you know of anything like this in the 
social service area?
    Let me give you another example. When I worked as a staffer 
in defense contracting, because the area I come from in Indiana 
is a big defense contractor for parts, probably parts all over 
the city, that come out of my area. It's auto, truck and 
defense contracting. Most major defense guys are there, 
particularly defense electronics.
    Now one of the things that we do there is line them up with 
Federal contractors. But not every person. In fact, if anybody 
can figure out how to read the Federal Register bid process. I 
mean if you think it is hard in social services, try reading 
defense. That trying to figure that for 7 days in the month of 
June they are going to be looking for this kind of bar, a piece 
of steel and they do not tell you how many they are going to 
buy or at what price, is confusing. Larger companies have 
people who do this the whole time. But smaller companies have 
banded together, and we did it through Job Training Partnership 
Act for a while where we have brought the grant book in there. 
We jointly through the job training program and pooled money 
paid the person who looked for and then tried to identify small 
contractors who could go out and bid for defense contracts. Why 
is this not done in social services? And what are the flaws to 
this being a proposal from us as one of the things the 
government should be looking at?
    In other words, because this is a classic thing. Unless you 
are great big and even if you are great big, it is confusing.
    Rev. de Leon. I am just concerned with startups. And people 
just getting going in the process.
    First of all, I mean the struggle getting your status. And 
second, the whole faith-based initiative has initiated 
something within our community that all of a sudden these 
little businesses are starting up left and right, grant writer 
are getting going just in time and asking for just enormous 
fees.
    Mr. Souder. Like the University of California system said 
each of our branches we are going to have in the business 
department or the sociology department an outreach program 
where students can help hook up and the university system will 
buy the Federal Register grant books, make them available at 
one place?
    Rev. de Leon. Well, it's not being done that I know of.
    Mr. Souder. Have you heard of anything similar?
    Rev. Carr. I mean, part of the issue is grant writing, but 
what we are really talking about is it is not just grant rates. 
Organizational capacity. And I think, because when we were 
first getting started it was not just grant writing, but it was 
management, it was accounting principles, it was all that kinds 
of stuff.
    There is a great example here in Los Angeles, it is an 
organization called Community Partners, which is really a 
nonprofit incubator. And it was set up that way. They have over 
180 projects, I believe, presently. And it is basically a place 
where someone comes with an idea, which is how all nonprofits 
start, about wanting to address some particular problem, they 
have an internal process then as to how they will determine 
whether or not to take on a project.
    Mr. Souder. And who is this group?
    Rev. Carr. It's called Community Partners. It is not a 
faith-based group. A guy named Paul Vandeventer who actually 
was a program officer for the California Kidney Foundation and 
did some other philanthropy work. I think from his experience 
of having grantees come to him, said you know a lot of people 
need kind of that capacity support. And so he started, I 
believe it was about 11 years ago, this Community Partners 
which was kind of this nonprofit incubator.
    And I think it is a wonderful example in Los Angeles of 
where people with ideas and people who really want to focus 
their efforts on kind of the grassroots work do not get bogged 
down completely by the requirements, be it in terms of 
reporting your 990, you know, filing all that kind of stuff. 
They provide that kind of institutional support. And then as 
the programs grow over time and decide they kind of want to 
move out on their own, then they are able to launch out onto 
their own once they feel like they have the capacity to do 
that.
    And I do think that is a fabulous model that ought to be 
replicated.
    Mr. Souder. We will get the information.
    Rev. Carr. Yes.
    Mr. Souder. Because I want to followup and see whether 
there is something that we could try to encourage or try to 
develop that would also include faith-based.
    Let me ask you another question. In that incubator model, 
without trying to pick on it because we are holding it up as an 
example, one thing you get; I do not want to be like an 
attorney who is afraid to ask a question that I do not know the 
answer to. But is that group fairly widely known or accessible 
to small black and Hispanic groups as well as larger 
organizations?
    Rev. Carr. Yes. Actually, I mean it is really designed to 
help the grassroots group and they are very diverse in terms of 
the people.
    Mr. Souder. Well, that is a model. Part of what was behind 
establishing the faith-based initiative, I'm going to digress 
and make a couple of comments with this so then we kind of zero 
in on the, also got to watch the clock, zero in on where I 
wanted to head with a couple of the questions and what we are 
looking at, trying to point toward. Because you all have 
thought about the subject some and have seen pretty much the 
enormity of the problem.
    Let me ask you another technical question first before I 
get into the legal question. Let me just go down the row.
    Do you require a statement of faith before somebody works 
in any of your projects? In other words, would you hire a 
Muslim in your organization?
    Rev. de Leon. Well, we have the two 501(c)(3)'s, I mean one 
developed and the other one established. So certainly on the 
church side no. And on the non-religious side, we will accept 
applications from just anyone.
    Mr. Souder. Because there is a lot of misunderstanding. By 
law everybody has to cover anybody who comes in. But one of the 
fundamental questions and one of the reasons that many of us 
believe you have to have a 501(c)(3) is it is clearly not going 
to get, it is absolutely clear, but there are going to be more 
restrictions if it's going to a church than a 501(c)(3).
    So you have a 501(c)(3) that is separated. The 501(c)(3) 
you are talking about that has not been cleared is for the CDC?
    Rev. de Leon. Correct, yes.
    Mr. Souder. And so are all the ministries you refer to, the 
outreach programs you refer to part of the 501(c)(3) that does 
not have the hiring?
    Rev. de Leon. The ones that were mentioned, the charter 
school, the senior business enterprise; those are under the 
CDC. The other after school centers are under the church, yes.
    Mr. Souder. So there you would have a statement of faith 
requirement for your staff?
    Rev. de Leon. Right.
    Mr. Souder. Let me ask you a question. Well, now I am going 
to step back a second before I move through the rest of these 
questions. So you understand, this is why the legal question 
becomes important.
    When we move forward with different faith-based 
initiatives, I mean the truth is for 20 or 30 years faith-based 
groups have been getting funding. That has not been the 
question. And let me be real blunt. The implementation of the 
legal initiatives have been erratic over the years on hiring 
questions and so on. Because the first area was homeless. The 
first area was actually AIDS and AIDS homelessness. And the 
only groups in the early 1980's that took them were faith-based 
groups. This is how it started under HUD under Reagan and major 
faith-based funding because people who did not have faith, they 
thought if they caught AIDS and died, some of the only people 
that would take it was faith-based. So nobody cared who they 
hired. They did not care if they were all Christians and had a 
statement of faith because nobody would take care of people 
with AIDS.
    Then it started in the homeless area. And under HUD they 
had a major homeless initiative where they did not ask the 
legal questions.
    Furthermore, we can argue about why this is, but 
historically the Hispanic and Black community have been treated 
somewhat differently in this category than the White community 
on the grounds that faith is part of their culture and 
therefore they had more flexibility in government grants. So 
that while grants going to, for lack of a better word, anglo 
groups had one set of legal scrutiny, things that were going to 
Black and Hispanic groups had less legal scrutiny.
    As we have now moved into competitive areas, specifically 
drug treatment where unlike AIDS and homelessness you had 
people who wanted the government funds, now they want to know 
precisely what is being done and if the law which was a danger 
during one broad bill like the President proposed as opposed to 
doing it agency-by-agency, now we are being asked legal 
questions and going back to things that nobody has questioned 
before.
    Let me give you an example. The classic questions are 
statement of faith. This also means what about if you were part 
of a faith group that believed homosexuality was a sin and you 
had a person who was a known open homosexual on the staff?
    What about, and this really gets into the question of drug 
treatment, if you had somebody that you knew from your church 
and other people told you was distributing narcotics but they 
had not been convicted in a court of law, would you fire them? 
If you have a Federal grant, you cannot unless it has been 
proven in a court of law. But a church would view it as 
compromising their integrity.
    For example, somebody who is supposedly beating his wife is 
in family counseling in the church but she has never filed a 
suit, you cannot take them out of a family counseling center. 
Your rules under government funds are different than under 
other funds. This is where the rubber really starts to hit the 
road. This is not just a statement of faith. This is even a 
501(c)(3), an outreach of your church such that some of those 
things are beyond a statement of faith and if those kind of 
restrictions start to come in because of legal scrutiny because 
we are now in battlegrounds where other people want the money, 
bottom line, now how does that impact a 501(c)(3)? Because 
there is no question of this.
    If the group has nothing that is unique to their faith, in 
other words hiring practices, requiring a prayer at the start 
of the meeting, requiring them to go to Bible study; if there 
is nothing unique to their faith, you are not applying as a 
faith-based group. You are just applying as a group for a 
grant, which is not wrong. You could have different arms of the 
same ministry under the same roof, some of which you very 
accurately in my opinion described. Giving out a shot to 
somebody, you can be motivated by faith to give the shot, but 
it is not a faith-based requirement with it. But quite frankly, 
so could somebody working for the government who is giving a 
shot, be it a Christian who is working for the government 
because they wanted to give shots to the poor. Your 
organization is really no different than a government 
organization, per se, in doing that. You can have a Christian 
who works for the government, you can have a Christian who 
works for your group.
    The question is are there unique things in your ministry 
that even in a 501(c)(3) is going to get us into some of these 
legal questions?
    Rev. Carr. First of all, we do not have a statement of 
faith for our hiring practices, but we do have you have to 
basically agree to our vision, mission and values, which are 
very faith oriented. And so we would ask someone in an 
interview, for example, let us talk about our vision, mission 
and values. Are these vision, mission and values that you can 
support that are embodied in who you are as a person?
    And so we have a conversation about that. And that 
certainly does have an influence on who we hire and we do not 
hire?
    Mr. Souder. Could you make sure that we get a copy of your 
vision, mission and values?
    Rev. Carr. Sure.
    Mr. Souder. And that is one thing I want to run through 
legal counsel as we start to look at this. And we will identify 
where it is.
    Rev. Carr. Right.
    Mr. Souder. But just to see, because that is the kind of 
thing we need to know because we get too many organizations 
hooked into any Federal funding with this type of thing.
    Rev. Carr. Yes.
    Mr. Souder. Because this looks like it could be a 
compromise. So in other words, if there is nothing uniquely 
that separates, for example, Muslim, Buddhist, Christian and 
Jewish groups for example, you do not beat your wife, you are 
not using narcotics.
    Rev. Carr. Right.
    Mr. Souder. You are to help other people. We might cover 
some of the categories. Homosexuality is still going to be a 
hot thing.
    Rev. Carr. Yes. We have people, you know, everything under 
the sun in terms of protestant Christians, Catholics, Jewish 
folks and I feel like it is a good place for us to be. But 
everyone is clear, we are there because of our faith and 
because of these vision, mission and values.
    Mr. Souder. On the health clinic side?
    Rev. Carr. In everything. We do not divide out, spin out 
this portion.
    Mr. Souder. So would you hire a Muslim at the health 
clinic?
    Rev. Carr. If they would support the vision, mission and 
values of our organization, if they could say that this is 
something that I commit to.
    Mr. Souder. Is there anything in that, that suggests 
upholding, you started out with God.
    Rev. Carr. God calls us to offer hope and wholeness and 
work toward reconciliation and empowerment and justice.
    Mr. Souder. That's pretty broad.
    Rev. Carr. It is fairly broad, yes. And purposely we have 
not defined a very narrow, even though our roots are 
evangelical Christianity, we have not defined a very narrow 
evangelical mission statement because we want to have a broader 
group of folks who can work with us and share in terms of this 
work.
    Mr. Souder. It is not clear where we are heading as a 
country whether even God will survive in the Pledge of 
Allegiance, for example, and the court case. That is going to 
be really interesting. Because if it is not upheld in the 
Pledge, which is indeed for kids which is a little different in 
many cases, but even that is considered, and we have several 
legal battles inside the court system that are going on.
    One is between kind of very conservative protestants and 
Catholics and Orthodox Jews and Muslims who tend to want to be 
able to have a statement of faith versus more liberal branches 
of all those religions.
    Rev. Carr. Right.
    Mr. Souder. And then you have the whole group that does not 
want any acknowledgement of any higher power, basically secular 
humanism.
    Rev. Carr. Right.
    Mr. Souder. Which is really the predominate court case 
route right now as opposed to the kind of the religious 
movement argument we are having.
    Mr. Carrasco, what is some of your reaction to this?
    Mr. Carrasco. This entire discussion is why we have stayed 
away from government money all these years. Now, it is 
something where we are exploring because the initiative came 
along. I am familiar with the sorts of things that Jeff has 
described.
    And even in our articles of incorporation the lawyer who 
drew that up, he just looked at me and said this is the most 
brilliant document he has ever seen. You can do everything and 
nothing with this language right here.
    As you stated, and Jeff and Lee, we have that capacity to 
flex and move.
    We are kind of a prickly group. I mean, I think our 
longevity is partly based on our ability to make these strong 
decisions promptly that we feel a need to happen. So I am often 
letting Christians go because they do not quite fit in with the 
vision of our organization from the staff. So anybody else who 
comes in, we reserve the complete right and freedom to do 
exactly as we choose, and that includes kids and families and 
anybody else who steps on the property.
    And again, that said, our school is separately 
incorporated. And the center is religiously incorporated. The 
school is not. And so the school, if and when we do move 
forward with Federal funding or government funding, it will 
probably be the school that makes the first foray there. And 
then we are just going to test the waters.
    I have been listening very closely to Jeff's testimony 
here. And we have not run into anything yet, though.
    Mr. Souder. Let me suggest a couple of things we are really 
looking at in this report, and you all have touched on all of 
them.
    Rev. Carr. Could I just add one more thing to this whole, 
because it sounds like you are going to move on?
    Mr. Souder. Yes.
    Rev. Carr. I know, I read the papers enough and listen to 
enough people. I know there is this raging conversation about 
this. But in our neighborhood, I mean everyone from local 
elected officials and State and government officials to 
government bureaucrats in Los Angeles, now maybe we have been 
around long enough where we have nurtured those relationships. 
My business card says Reverend Jeff Carr. With every grant 
proposal we ever send, we send in our vision, mission and 
values because we want people to know what those are.
    We are not struggling with this argument. No one is coming 
to us and saying, you know, you are a reverend. You know, are 
you trying to do anything subversive here.
    Most people are like, you know, thank God you are in this 
neighborhood trying to work to change. And the fact that you 
have lived and worked in that neighborhood, because I have 
lived about 10 blocks from the center for 16\1/2\ years, they 
are more enthralled with that because they know that somebody 
is serious about change than they get all bent out of shape 
about this whole dichotomy of faith.
    So just to kind of give you a reality check that on the 
ground, at least in my neighborhood, that is working.
    Mr. Souder. That is extremely important to put into the 
record. And once again, it is extremely important to identify 
and make it clear to anybody who reads this hearing report what 
your neighborhood is. Your neighborhood is basically a resource 
challenged low income neighborhood where not a lot of people 
are running to try to put the money in, so you are an additive?
    Rev. Carr. Sure.
    Mr. Souder. Where we run into the problem, once we start to 
go into the government programs, is if it becomes a competition 
for where the money is going to go. To protect large groups of 
money outside of your neighborhood, they are going to, if 
necessary, come back and reach into Reverend on your card.
    Rev. Carr. Yes. I mean, we compete for some of those 
dollars right now.
    Mr. Souder. Well, I mean if it is not you competing 
heavily.
    Rev. Carr. Right.
    Mr. Souder. And where this really started to get tough is 
when it started to go into Head Start, when we started to go 
into drug treatment, when we started to go even into juvenile 
delinquency where there are much larger bureaucracies and that 
they realized that 70 percent of their money could be 
endangered by faith-based groups. Because there is no political 
and not much rationale to the opposition that is developed to 
the narrow tardiness of the faith-based program. Like you say, 
why would people be against it? Because in the local 
neighborhoods there is not the opposition. So the question is, 
how did this opposition arise? But it is intense.
    And furthermore, it is Constitutional at this point. And 
that the first group in your neighborhood that gets a multi-
hundred thousand dollar lawsuit thrown at them because they 
have Reverend on the card, the rest of them will be chilled. 
And that is what is happening in part of the country and what 
we are trying to figure through. Because there is going to be a 
couple of guinea pig cases here around the country. One of the 
goals should be, do not be it.
    Rev. Carr. Maybe I should not have been here today, huh?
    Mr. Souder. No. And I do not think they will. I do not want 
to get too deeply into the legal thing here because I want to 
test some other ideas with the time here.
    One was this incubator grant writing, and you have given us 
a great name here to pursue.
    Mr. Carrasco. When the President came and the----
    Mr. Souder. Steve Goldsmith from my home State was supposed 
to be initiating that. For a number of reasons they ran into 
some roadblocks, one of which was the corporations were 
extremely jumpy in the lawsuit area and all you have to do, if 
I have said it twice, I am going to mention it again. All you 
have to do is say the word homosexual around any business 
organization in the United States right now, major 
philanthropy, and they will just turn white as a sheet. Because 
this is a public argument that they do not want to engage in, 
hiring practices.
    And so second, if you mention the word Jesus you will see 
them turn just as white; God a little less. But what we have 
learned early on in the corporate philanthropy movement is we 
were actually fighting as big or bigger as we were in the 
government side. Now that is to say that individuals----
    Mr. Carrasco. Because of the fear of lawsuits?
    Mr. Souder. Fear of lawsuits, but even more so, fear of 
letters, boycotts, protests, being seen as a religious right 
wing organization when they are trying to sell the product to 
everybody everywhere in the world and large communities. In 
getting the biggest trusts, Ford Foundation, Lilly Endowment; 
those big foundations in the country tend to earmark.
    Now, what has happened is the foundation movement has split 
and you have Philanthropy Roundtable and other foundations that 
are more willing to do this. But what has to be part of our 
initiative is how to match private sector resources with this.
    Now part of what I have been brainstorming and I know they 
are in the administration, too, is how would you have fair 
analysis done of this dilemma? In other words, one way to do 
this would be to have the regional meetings that the 
administration does. This would not even have to have anything 
come out of Congress, the administration could just do regional 
capital resource management meetings around the country with 
foundations and bring people in. How would you do it? If you 
want to submit anything written to us, suggestions on what 
would you do to identify what you so correctly called capacity, 
the resource and outcome orientation. Lilly's in my home State. 
They're mostly tied to home State, but they are now about the 
second biggest foundation in the country.
    But let us say that Lilly came in. They have not been in 
Los Angeles. There are 1,000 groups that come to this meeting. 
What kind of checklist, how would you have a process 
implemented so they could sort out who is the hustle and what 
is real?
    Mr. Carrasco. Yes. I think that this intermediary concept 
plays out. Is just critical. So that my interest in Nueva, I am 
not a staffer, I am not a board member. And these are friends 
of mine and I have followed this movement very closely. And its 
uniqueness is that it is hitting a sector that simply was never 
hit, Hispanic churches. And capacity building was the very 
appropriate thing because some groups should take the money, 
some should not. As Jeff said, I mean whether it is public or 
private dollars, do you want to slip these folks any cash or 
not? Are they going to handle it well? And there is no way 
around the fact that they are going to have to build capacity. 
There are no ifs, ands or buts. I do not care who are, where 
you are coming from. Either you are going to manage the money 
or you are not. Now that is where these intermediaries come in.
    Nueva comes in and all the basic argument that there is a 
certain amount of trust built in because they shared safe 
ethnicity. And so there are a lot of groups that merge with 
another example. The Community Partners thought.
    I would say that there are some groups that are not even 
ready for the Community Partners. And so you describe this 
group that can come together and in various parts of the 
organization can provide support. My feeling with Community 
Partners is that they do a good job and they are kind of mid to 
high level. There are a lot of groups that would not even make 
it in there.
    So the idea that a school like an Azusa Pacific or Fuller 
Seminary or a local college, Cal Tech has for some of the grad 
students as you were talking about with the business school, 
these certain projects to go in and to sort of walk hand-in-
hand with the group. This is tremendously important because 
eventually that group is going to be able to walk into 
Community Partners with some confidence in knowing what they 
need to do.
    So there are stages of intermediaries that are needed. And 
so when a Lilly hits the ground, I would hope, and I am just 
learning this also. We were just rejected for a foundation 
grant. We expect to get it next year. They said simply we just 
did not have enough staff to do a thorough evaluation of your 
group so we had to say no because we had not done our leg work. 
It is going to be very hard for Lilly or anyone else to come 
into Los Angeles and to be able to go into the community and 
identify all those little, little groups. So we need multiple 
intermediaries. We cannot just rely on Nueva. And there are 
other groups that are around there. And these people are sort 
of doing the vetting and making sure that folks in groups are 
legitimate.
    Mr. Souder. Because the scrutiny is going to be 
overwhelming from the media. The first couple of people rip it 
off.
    Mr. Carrasco. Yes. Right.
    Rev. Carr. And I think Community Partners, the good thing 
and, really, I have known Paul for 10 years since I met him 
before he first started that. But they not only provide the 
incubator services, but they also provide technical assistance. 
A lot of the support they actually generate from other 
foundations and government grants is to do technical assistance 
for providers out there, for people who are trying to get these 
resources.
    I mean, actually to respond a little bit to Rudy. I know a 
guy who had an idea. It was called College Match. He wanted to 
help kind of your second tier of kids from really lousy inner 
city schools get into really good colleges, your really high 
end private liberal arts colleges, and stuff like that. It was 
an idea. He came and talked to me first. He did not have all 
the capacity and the infrastructure to start that up. I sent 
him to Community Partners. He went to Community Partners. He 
proposed his idea. He has a good concept of what he wanted to 
do. He became one of their sponsored projects. So now any money 
he raises, you know, it goes to his fiscal agent. They take a 
certain amount, a percentage for capacity, fill out and file 
his 990 form. And so it is a great deal for him.
    As that program grows, if he chooses for it to grow and he 
wants to take on the capacity, then he can do that.
    But I think one of the challenges, I have been at Bresee 
since we had $20,000 and had a half time staff person at Bresee 
and a half time, it was split between the church and Bresee. It 
took us a long time to develop that capacity. And in some ways 
it pulled people like myself who were doing, you know, I was on 
the streets everyday with kids for the first 7 years. I had to 
make a decision at some point. Either I had to help the 
organization develop capacity which pulled me away from what I 
loved and what I was good at, which was working with really 
hard core teenagers and pull that away and build some capacity 
in the organization so that we would be able to help more 
teenagers or just continue doing what I do.
    Mr. Souder. Well, we had one witness at our Charlotte 
hearing who was really tremendous, and that was one of his 
themes. And he had looked at one of the other witnesses and 
said, and part of the reason one of the other witnesses saying 
they were resource challenged is because you really have a 
heart for helping people, you do not have a heart to be the 
head of the organization. Because if you wanted to be the head 
of the organization, you have to be willing to raise money and 
build leadership.
    Rev. Carr. That is right.
    Mr. Souder. And that is part of what I know. I know Taylor, 
IN is doing a lot of this with different groups in reaching in 
and trying to build capacity. It has to be more capacity. 
Sometimes I think some of this current leadership stuff is a 
little bit fluffy to somebody who has an MBA, but you also have 
to have accounting leadership, how you do the financial, how 
you do recruitment, how you have accountability.
    I wanted to followup with the other thing you had, Mr. de 
Leon, this Esperanza.
    Rev. de Leon. The project?
    Mr. Souder. Yes. Could you describe, because one of the 
other things that Les Linkosky when he was head of Americorp 
and John Bresland, although I think he's still at Peace Corps, 
came to me with proposing my district run a test on this, and 
we have not yet. But to run almost like a volunteer fair where 
you would have some of the government agencies in, so you know 
you've got some credibility and some screening with it. We put 
in the new Americorp Bill that faith-based organizations are 
eligible. That one of the things that Americorp is supposed to 
be oriented toward is not just paying the volunteers, but 
paying the coordinators for the volunteers. Because often you 
have the volunteers, you just do not have anybody who wants to 
say who is going to go which days and how it is going to be 
organized.
    Similar things with Peace Corps, Vista and so on.
    Could you describe what you are talking about in yours as 
to where a similar type thing, where we bring in the different 
organizations, where you would promote it in the churches and 
in the community to say look, here are different organizations 
looking for volunteers that would do different things. Or you 
could promote it from a services standpoint of here are 
different people who provide different services in the 
community, come in and if you are a potential utilizer of the 
services. This is a concept that we have been rattling around 
with.
    Could you describe what you are talking about?
    Rev. de Leon. Well, the event is basically focused at the 
community and trying to bring the community in, expose them to 
what community-based and faith-based groups do. And it is 
coordinated by faith-based groups, primarily our church.
    And in the past we were having up to 100 different 
community groups come together and do that. So it is a great 
opportunity.
    Mr. Souder. Looking for volunteers?
    Rev. de Leon. No. The focus was not to gather volunteers. 
It was to expose the community to some of the community 
services, right.
    Mr. Souder. So it was not necessarily even, say, somebody 
who was homeless would not come in trying to figure out who 
provides services?
    Rev. de Leon. Yes, yes, yes.
    Mr. Souder. So it was service oriented?
    Rev. de Leon. Service providers in our community just 
letting the public know what they were about, what they were 
doing. And the service providers are excited about events like 
that because it helps them, you know, reach out to the public.
    We also just did a big give away of toys, gifts of 
different kinds and food. So it was very attractive to the 
surrounding community. But it also, because it is a long 
planning process, it is a way of bringing the various service 
providers together. It exposes some of the non-religious, non-
faith-based groups to faith-based groups in their community and 
what they are doing.
    So it was community building. It is a great event. But we 
are not trying, you know, some individuals find organizations 
that they want to continue to be a part of.
    We do mobilize over a 1,000 volunteers to put on the event. 
Last time we did it we had about 1,400, 1,500 volunteers just 
to host the event. And it is done at the local stadium.
    Mr. Souder. It is not to say that you could not do multiple 
things at the same thing? In other words, you might have some 
people that are looking for services, others just curious in 
the community, some looking for a place to volunteer. And then 
you always hope you can have one or two people and they are big 
donors coming in incognito to look for some organization that 
strikes their fancy.
    Let me ask, Bob Woodson years ago raised this to me and I 
raise it and watch everybody get upset and tell me all the 
reasons why it cannot work. But it still drives at a point, and 
I would like your reactions to it. And that is the zip code 
test with a certain amount of our grants. That you do not get 
the grant unless you live in a zip code where the grant is 
being implemented.
    Mr. Carrasco. If you are the head of the agency or what do 
you mean?
    Mr. Souder. This is something you could have a great 
Federal idea, say we are going to do a zip code test, and then 
obviously that is the question. Part of the problem is for 
years and when I first became the Family Committee's Republican 
staff director years ago, Bob told me don't be a typical White 
guy who sits on your duff and tries to figure out what is going 
on in the urban centers and figure out your solution. Go out 
and listen to the people.
    And one of the things you clearly see is effective groups 
are based in their neighborhoods. So the question comes how do 
we match that up? And you can tell a lot of times they would 
say, or Gene Rivers in Boston is a big proponent of this whose 
staff told me we can always tell who got the government grants. 
They come in here 9 to 5. You can see them wandering through 
the neighborhood. Then about 5 or 6 they go back out to the 
suburbs while we are left with trying to fix the pieces because 
the real problems here occur between 6 p.m. and 6 a.m. and not 
9 a.m. and 6 p.m. I have seen that and heard that all over the 
country. So how do we address that in our government grants?
    Is one way, yes, maybe the head of the organization 
doesn't. But does a certain percentage of the staff have to 
live there? How do you address, because that leads to a very 
explosive thing in these kind of debates, which you raised 
earlier, which is indigenous leadership from the community who 
are responsive to the community.
    Anybody want to tackle those?
    Mr. Carrasco. I have never even imagined anybody trying to 
deal with that problem. And we just know anecdotally from our 
experience that, you know, this whole idea of poverty pimping 
and there are people who come around and get the money, do a 
few things and leave.
    I mean, philosophically we share a lot with Bresee. I live 
next to the corner liquor store, bought the house. Have been 
there for 13 years.
    And so when we measure effectiveness or even when I 
evaluate who I am going to partner with, that is one of my 
tests.
    I have never even imagined that at a Federal level or a 
government level that that would be required. Certainly for 
effectiveness it would jump through the roof. Now whether or 
not you should do that, I do not know.
    Rev. Carr. I would welcome it. We would be more competitive 
than we are now. Because about 70 percent of our staff lives in 
our service area, and I own a house.
    Mr. Souder. Would you not estimate from watching that the 
reverse is true for most programs that are federally funded?
    Rev. Carr. Yes. I do not know. Well, not necessarily 
Federal funding. I think a lot of people do not want to 
relocate or to stay in a neighborhood that has very challenging 
circumstances. But, again, I think for Rudy and I, I know this 
because we know each other and we have talked, I mean the 
reason I live in the neighborhood where I have worked and 
always have, is because that is part of my faith commitment. I 
mean, that is a direct result of trying to be incarnational in 
my approach of saying that, you know, if I am going to be in 
this neighborhood and I am going to try and solve the problems 
in this neighborhood, I cannot solve those problems from a 
distance.
    Mr. Souder. Freddie Garcia believes his ministry would have 
collapsed if after it got successful he would have moved out.
    Rev. Carr. Yes. My kids, I mean I will be really honest 
with you. My son is 4\1/2\, he starts kindergarten in the fall. 
And we are struggling with where he is going to go to school 
because we are committed to public education. Because I do not 
want to just talk about it, we've got to figure out a way to 
change the public schools and then disengage from the public 
schools by putting my kid in some hooty tooty private school 
someplace. I am trying to figure out how am I going to navigate 
with my son and not make my son and my daughter, who is 16 
months old, an example because of my faith commitments and my 
work and what I am trying to accomplish in the neighborhood. 
But that makes it when on my professional side I am trying to 
figure out how to transform the L.A. public school system as it 
exists in my local neighborhood, you had better darn well 
believe I care about that. You had better darn well believe I 
care about drive by shootings in my neighborhood because I do 
not want my kids to get picked off by that. I care about the 
fact that we get more parks in our neighborhood because there 
is no place for my kid to play. The park that is going in on 
Thursday, my son is as excited as anybody in the neighborhood. 
Because he has been watching from day one. ``Daddy, I am going 
to have a place to play on Thursday.''
    Well, that makes a fundamental difference in how you 
approach the work. I mean, it is not just 9 to 5 and then I go 
home to my nice quiet little suburb. This is my life 24/7. You 
know, I hear the helicopters every night.
    And so, you know, I think that does make a fundamental 
difference. I mean you can see my emotion just getting more 
revved up just talking about it. And I think people who do 
experience and live that, that does make a fundamental 
difference.
    Mr. Carrasco. And maybe in the course of the scoring of a 
proposal, I do not know. Somebody held me here. But maybe there 
are a few points added if principals or certain percentage live 
in the zip code test. I know that at least for the Compassion 
Capital Fund there were certain points if you had a faith-based 
partner or were faith-based and you are actually penalized in 
that process if you did not. So maybe perhaps something similar 
to the zip code test would help.
    I did not want to cut you off.
    Rev. de Leon. No. But like in Rudy's case, you know, at 
this point it would work, but what in the future if he moves 
out to Pamona and sits in another base somewhere else, spreads 
himself? In our case, we work in two or three cities. I guess 
you could require a percentage of the staff to live in that 
particular community.
    Mr. Souder. I am trying to figure out a typical government 
way of trying to figure out a macro answer to a question. But 
it is, I believe, one of the bigger problems that we are 
dealing with, and that is that if you accept the principle that 
the most effective groups are in the neighborhood living there 
and understand the problems, why aren't the dollars getting 
there? One is the capacity building of the people who are there 
so they know where the grants are, but also how to implement 
grants, what kind of paperwork we require because it is now 
taxpayer's money or outside investor's money, not your own 
money. And the second thing is then how they stay there and 
this money does not even have all these levels of bureaucracy 
to take the money off before it gets down to the community. So 
we may appropriate $100 million. By the time it gets to the 
neighborhood, it is $10 million.
    Somehow trying to wrestle with this question. I know we are 
at the heart of a big question, but how to fix that is really 
challenging.
    One of my friends under the Reagan administration tried to 
implement much more flexibility, quick grant applications and 
what they found was then they got hustled, had a bunch of 
breakdowns, news media stories on people who cheated because 
they saw that the accounting and the background was not as 
much, and set back the whole program. And this is our dilemma 
of how much kind of white middle class regulation business 
school accounting to put on people who are motivated by heart 
and service in the neighborhoods. And somehow we get the 
balance ever so often over the direction why should we now, 
which is more bureaucratic. We are trying to do kind of like 
the Sal Linsky neighborhood type of things again in a secular 
version of it and how do we do that in the country? And that is 
partly what the people who initiated this initiative in the 
administration and in the legislature are interested in. Is 
this is not some kind of broad suburban approach? This is 
really how do we impact the poor.
    And when the program got off into the impression that this 
is how to help, I am not a critic, but how this could help 
Jerry Falwall and Pat Robertson, that is not what this program 
is about. But if we are not careful, it just gets clocked in 
like every other program. And the question is how do we get it 
into the dollars where it is supposed to go.
    Any of you want to make closing comments, and that will be 
the end of this panel.
    Rev. de Leon. No. And I think that's a really good point. 
You know, very often the residents, the stakeholders are left 
out of the plans that are being made for their own community. 
It is an outsider coming in with the answer. You know, usually 
the residents are people that are being effected, but the needs 
in their community are not heard, they are not listened to. So 
I would encourage that.
    You know, I would probably go with the percentage on the 
staff.
    Going back to the hiring, just so you know, we require that 
the members of our board and, I mean we are not all exclusive. 
I mean the board members, we have some Christians on the board, 
just people that are active in our community. So we have not 
been challenged as Jeff mentioned. We have not been challenged 
by that. We are pretty open. We do understand where there are 
areas of concern and areas that we have to protect that are 
very closely connected to the church and the work that we do. 
But certainly setting up a 501(c)(3) that as non-religious does 
require navigation.
    Mr. Souder. And if you are going to have a prayer in the 
non-religious part, I agree that this amendment as we are 
moving it through in Head Start and some of the education 
things and after school programs, that if you want to have a 
prayer, you can have your prayer before the meeting starts and 
tell people you're going to have a prayer group before the 
meeting starts, then have your thing that gets the government 
funding. And then if they want to ask you about your faith, you 
don't have to do that by beating them over the head with a 
stick. You can say well why don't you talk to me about that 
later.
    There is a legal model and the question is, is this going 
to be held up. And it is one that I am not particularly happy 
with, but Planned Parenthood gets family planning funding, and 
they do their abortion counseling in the same building but in 
another part. And the courts have upheld that's not abortion 
funding because the part that is getting their family planning 
money is not doing abortion counseling because it is done 
across the hall. Now that same principle can be used in faith-
based if in fact----
    Rev. de Leon. That's right.
    Mr. Souder [continuing]. You have it set up. It helps pay 
the rent, can help pay the overhead. The court has one regional 
ruling but it has not been upheld by the Supreme Court yet, and 
that the computer does not proselytize, the software 
proselytize. That's the principle that Catholic schools can get 
their buses paid for. It is a principle that you can get 
certain hardware into an overtly religious organization. But 
what we are getting into is where does software start in this? 
What about if it is a required uniform? What about the 
textbooks? What about if it is a math textbook? What is the 
composition of your board? These are new questions that we are 
at the edges of, the legal has not been sorted out. But it has 
made me very nervous that it is going to be even more broadly 
defined. But we are working this through.
    And as this panel has so eloquently pointed out and what we 
are trying to work through is we often hear the Federal debate 
just about the Federal money; that's part of it. Faith-based 
groups have been part of that for a long time. And the only 
question here is what could they become if there were choices? 
Could you have one of your choices be overtly religious for 
drug treatment if there are other choices? I do not believe the 
court will uphold it otherwise. Should you be allowed to 
actually belong to a drug treatment program where they require 
prayer as part of it if you have a choice of another drug 
treatment program? I do not believe it will hold up if there is 
not a choice.
    But beyond that, there is a lot more to the faith-based 
initiative than that. The training for the different groups in 
capacity building, the tax credit which has already been upheld 
by the courts which enable you to increase donors, matching up 
with the different foundation groups in the private sector 
groups, trying to figure out, and we did not even get into 
legal liabilities of staff. And all the insurance problems that 
come on non-profit groups as we get into some of these areas on 
child abuse, spouse abuse, drug treatment, family counseling 
and potential liability reform. There are a whole bunch of 
areas we are working with and you have helped us forward that 
debate.
    Any closing comments from the rest of you?
    Mr. Carrasco. Just to introduce you to a guy named Ron in 
my neighborhood. He is a two time felon, almost got his third 
strike. In California you go to jail forever. Turned his life 
around as a Christian. Still will not get hired anywhere 
because of his record. Volunteered with us for a little while. 
Got a hold of a van.
    It has been really tough. And there is no way, as I said 
before, I do not think there is any way around the fact that he 
is going to have to learn, whether it is capacity building to 
earn trust, managing financials, managing volunteers, managing 
an organization for what he wants to do. And so it is slow 
going. Meanwhile, he is in that van and he goes into the worst 
projects. He knows everybody and he picks up the kids, and he 
is sticking with them.
    We talked about refocusing it back on the people. I am 
excited about that guy. We are working. We are doing what we 
can. We did not take any government money. We even lost a grant 
because of him. He had a bad rep in town. He used to go up and 
holler at the mayor and the police chief. We actually lost, I 
think, $30,000 sticking with him. But he just came along.
    I think what we did, we did not build his capacity 
technically, but we roped off his rough edges. We taught him 
how to quit being such a rough edge guy. And he is going to 
need Community Partners and other groups like that.
    Just a story. Just to throw it in there on the record and 
help us keep our eyes on the folks who are really doing the 
work.
    Rev. Carr. I guess I would just finish by saying it seems 
to me that part of what we are not about or what we are about 
is to build the capacity of the people in the neighborhood. And 
the neighborhoods will never get better unless we build the 
capacity in the people. So it is incumbent upon me, it has been 
incumbent on me for the last almost 17 years, to figure out how 
to navigate all this stuff.
    Well, someday Jeff Carr is going to be gone. I've got about 
23 more years I want to give my life to that neighborhood. But 
after that, if I have not developed the capacity in some other 
people, some of the young people that we sent to college to get 
them educated for that very purpose and we have not 
indoctrinated them, if you will, with the vision for how that 
neighborhood can get better, then we have failed them. We have 
failed the neighborhood. And the organization will not have 
been successful.
    And it seems to me that has to be fundamental to any faith-
based initiative is that we have to build the capacity amongst 
the people in the neighborhood to know how to do all this 
stuff. And it is incumbent on those that are leaders in those 
organizations and in those neighborhoods to do that or we ought 
to be tossed out on our ears because we are not doing our job.
    Mr. Souder. Anything else you want to say?
    Rev. de Leon. I just want to thank you for coming to Los 
Angeles.
    Mr. Souder. Thank you.
    Mr. Souder. And giving us this opportunity. It is just a 
joy to be here, there are just people like yourself that are 
supportive of our work on a local level.
    Mr. Souder. Well, thank you very much for your efforts. And 
thank you for coming.
    We will take a brief recess to take a break. And then we 
will have the second panel start.
    [Recess.]
    Mr. Souder. If each of the witnesses could stand. Need to 
give you the oath.
    Were all of you here earlier when I explained this? This is 
an oversight committee of Congress. It is standard practice of 
this committee that we swear in all the witnesses. So if you 
will raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Thank you. Let the record show that the 
witnesses responded in the affirmative.
    Thank you all for coming. Those of you who have been here 
kind of got a general drift of some of what we are trying to do 
here. We have 5 minutes basically for testimony, being a little 
generous with the definition of the 5 minutes. But that way we 
have time to interact on some of the major questions.
    Your written testimony will appear in the record, so if you 
want to veer from that or comment on the first panel, however 
you want to go you can kind of see what kind of information we 
are putting together here.
    Our first witness is Dr. Keith Phillips, president of World 
Impact.
    We thank you for hosting us here today and for this 
wonderful opportunity to be here.

  STATEMENTS OF KEITH PHILLIPS, PRESIDENT, WORLD IMPACT; DOUG 
GOLD, EXECUTIVE DIRECTOR, JEWISH BIG BROTHERS AND BIG SISTERS; 
JOHN BAKER, CELEBRATE RECOVERY; STEVE ALLEN, SALVATION ARMY OF 
SOUTHERN CALIFORNIA; AND TIM HOOTEN, EXECUTIVE DIRECTOR, OFFICE 
       OF MINISTRY AND SERVICE, AZUSA PACIFIC UNIVERSITY

    Mr. Phillips. Thank you. Chairman Souder, we are very happy 
that you are here and thank you for allowing me to appear 
before you today.
    I am president of World Impact, a non-profit, faith-based 
organization designed to help transform the lives of the urban 
poor.
    Our ministry began right here in Watts in 1965 and now 
extends to San Diego, Fresno, San Francisco, Oakland, Wichita, 
St. Louis, Dallas, Newark, Philadelphia and, of course, other 
communities in Los Angeles. We have camps and conference 
centers in California, Colorado, Kansas and Pennsylvania. We 
offer housing for the homeless, job training for the 
unemployed, education and GED training to dropouts, health care 
to the sick, uninsured and impoverished, and food and clothing 
to the hungry, addicted and downtrodden. We provide assistance 
to single mothers, and youth clubs and camping experiences for 
at-risk and troubled kids and their families.
    Our success can be attributed to four critical elements in 
our work: One, time-tested techniques and successful programs; 
two, committed professional staff, who actually live in the 
inner-city communities where they serve, and thousands of 
committed volunteers; three, our partnerships, which are strong 
with churches, universities, hospitals, social service agencies 
and organizations; and four, the spiritual component of our 
work, which is the very foundation of our dedication and 
commitment to helping others. It guides our mission and 
transforms lives.
    World Impact prides itself on being financially 
responsible, efficient and honest. We have low administrative 
costs and a high volume of volunteerism. We significantly 
reduce the burden placed on State and local governments and 
public agencies by servicing a high volume of individuals and 
helping them become self sufficient, educated and taxpayers, 
instead of tax recipients.
    I want to give you three examples of our financial 
effectiveness:
    In Wichita, KS, we operate the Good Samaritan Clinic which 
serves the uninsured, impoverished patients seeking primary 
care.
    At the two major hospitals in Wichita an emergency visit 
costs $600, plus $150 for the physician. There is an additional 
charge if a patient has called an ambulance, and the hospital 
has to pay to return the patient home. Headache, or other body 
pain, is the No. 1 reason hospitals give for patients visiting 
the emergency room. The primary medicine dispensed is Tylenol. 
This means that Tylenol and getting your blood pressure checked 
costs more than $750, plus up to 6 hours of waiting time.
    At World Impact's Good Samaritan Clinic we charge an 
average of $26 per visit. Our actual cost is $45. This fiscal 
year, we billed $53,000 to patients without health insurance or 
any other kind of assistance. So far, we have received $5,000. 
We operate on a sliding-fee scale.
    Bottom line: $750 versus $26 per patient. The faith-based 
ministry has an obvious efficiency.
    Our second illustration is the school that you are in here 
today. We are sitting within a mile of the three worst schools 
academically in the State of California. The Watts Christian 
School performs 50 percent better than the local elementary 
school in math, three times the performance in the language 
arts. The Watts Christian School has half the classroom size 
and costs 75 percent of what the State pays per pupil.
    In other words, our classroom sizes are less than 15. The 
cost per student is $4,000. The State pays $6,450 on average 
per pupil.
    In San Diego, our vocational-training business assembles 
sprinkler parts. We provide reliable employment for 30 plus 
employees. Nearly 200 people have gone through our program, 
including the formerly incarcerated and/or addicted, single 
mothers and senior citizens with limited incomes, who do not 
qualify yet for Social Security. Approximately, 75 percent of 
our employees have been teens who otherwise would have joined 
gangs, turned to drugs or had a difficult time finding 
employment for many reasons.
    Our program teaches entry-level skills. We have a great 
success rate. Close to 90 percent of our employees find better 
jobs, finish high school, go on to college or enter the Armed 
Forces.
    Jose Moran worked for us for 8 months in 1995. He came as a 
teen with little job experience, bored and looking for 
direction. We helped him secure employment with Hamann 
Construction, where he started as an apprentice carpenter. 
Today he is one of their supervisors. He is married and has two 
children and recently bought a home for his family.
    Maria Saucedo began working for us in 1992. She dropped out 
of school in the 7th grade, had her first child at 15. Today, 
she oversees our work and earns $12 an hour.
    Five of the eight Lira children, who grew up in a two-
bedroom apartment right next to our ministry, worked for us as 
teens. Two of them went on to Christian colleges to get degrees 
in education, one is a plumber, one works in shipping and 
receiving at a golf supply manufacturing company, one became 
married, has children and stays at home caring for them.
    Time prohibits me from sharing with you the great success 
we have had with our Jobs Alliance Program in St. Louis, family 
vacations for the urban poor nationally, conferences for 
survivors of senseless street-gang violence, vocational 
training for the Hmong and Ming in Fresno, community breakfasts 
for the homeless in Newark and Oakland. Our staff and 
volunteers are amazing people, modern-day heroes.
    I invite you to tour all of our facilities and programs 
throughout the country to get a better sense of what we are 
doing and how the programs work.
    While we have experienced great success, one element is 
missing. Imagine what could be accomplished for the urban poor 
if organizations like World Impact could partner with the 
Federal, State and local governments to solve some of these 
deeply rooted problems that confront us. But is it possible to 
partner with the government without fearing that we will lose 
our core values, our mission or our spiritual focus? Probably 
you are in a better position to answer that question than I am.
    From my perspective, the government can help us, and I 
jotted down just a few thoughts: You could forgive student 
loans for teachers, doctors, nurses and other staff who serve 
in the inner-city. You could provide school vouchers for 
institutions like this. You could provide incentives for 
professional volunteers: doctors, nurses, dentists, teachers, 
plumbers, electricians for their time that they donate. You 
could provide tax incentives for businesses which provide 
volunteer days for their employees, or to secunda professionals 
to a non-profit for an extended period of time.
    You could encourage Federal employees to volunteer. Members 
of Congress should set the example. You could provide lists of 
Federal volunteer labor sources, for example Armed Services 
personnel, prisoners, and how to contact them to get them 
involved. You could provide subsidy for job training either to 
establish a new faith-based job-skills training, or to help 
with the cost of third-party educators. Open the Workforce 
Investment Act of 1998 to faith-based works.
    You could provide new and used vehicles, and other 
equipment, materials and supplies. Instead of disposing of 
seized property--cars, trucks, land, etc.--at government 
auctions, give it to us. Give us facilities where we can run 
clinics, thrift stores, recreational activities and vocational 
training. Help us provide better transportation for the urban 
poor to camps, conferences and schools by giving us the use of 
government vehicles like buses on weekends. Provide mal-
practice insurance for clinics. We would open clinics in every 
community where we minister if we could afford the insurance. 
In Kansas, the volunteers are covered under the Charitable 
Health Care Providers provision in the statutes. Without this 
legislative coverage, we could not involve volunteer 
professionals like we do.
    You can provide books/resources for schools and camps among 
the poor, surplus food. You could allow non-itemizers to deduct 
charitable contributions. The government could subcontract work 
to us, which we would use for vocational training. Maintain and 
expand the enhanced deduction; that's the cost of the inventory 
plus half of its appreciated value when a company donates 
inventory for ``the care of infants, the ill, or needy.'' And 
then you could invite the Watts Christian School Choir to sing 
at the House of Representatives.
    Chairman Souder, thank you for indulging me and for 
inviting me to appear before you. I would be pleased, of 
course, to answer any questions you might have.
    [The prepared statement of Dr. Phillips follows:]

    [GRAPHIC] [TIFF OMITTED] T4157.019
    
    [GRAPHIC] [TIFF OMITTED] T4157.020
    
    [GRAPHIC] [TIFF OMITTED] T4157.021
    
    [GRAPHIC] [TIFF OMITTED] T4157.022
    
    [GRAPHIC] [TIFF OMITTED] T4157.023
    
    Mr. Souder. Thanks for a great list.
    Next is Doug Gold, the executive director of the Jewish Big 
Brothers & Big Sisters in L.A.
    Mr. Gold.
    Mr. Gold. Thank you, Mr. Chairman.
    I was not exactly sure what to expect today showing up, but 
I think my comments are still relevant here.
    Tikkun Olam. It is a phrase familiar to the Jewish people, 
but perhaps not to all of you. Now why would I share this with 
you? Because I think it speaks to the values and work that the 
Jewish community does. It is the essence of who we are. It is 
at the heart of everything we do as Jews.
    What does Tikkun Olam mean? Now keeping in mind that I'm 
not a Rabbi or biblical scholar, there are actually multiple 
interpretations which have been debated for centuries. And it 
might seem odd that two short words could vary so widely in 
interpretation, but that's an entirely different subject, and I 
think there is actually a joke in there somewhere about a 
couple Jewish lawyers, but we won't go there today.
    Loosely speaking, Tikkun Olam means ``repairing the world'' 
or ``healing the world.''
    You will notice that nowhere does it make reference to 
race, color, creed or religion. That is the essence of what the 
Jewish community bases its values on. A non-discriminating 
approach to helping mankind.
    And that is exactly what we are in the business of doing 
every day at Jewish Big Brothers Big Sisters of Los Angeles; 
repairing or healing the world one child at a time, to the tune 
of 1,500 children every year.
    We have been in business for 88 years, serving our 
community irrespective of race, color, creed or religion. 
Certainly our program has its roots in serving the 
underprivileged children of the Jewish community in 1915. We 
were trying to save young Jewish men, who had no male role 
model in their lives, from taking on a life of crime. We 
plucked young men right out of the juvenile court system and 
began counseling them and showing them alternatives to the 
destructive lives they were leading by matching them up with 
Big Brothers. Business professionals showed a keen interest in 
supporting this cause and formalized our program over the next 
several years.
    By 1936, we were seeing the needs of our community change 
slightly. The Depression had brought about severe economic 
challenges that left many of the kids in our community 
starving, not just for affection, but for food. Camp Max Straus 
began as a way of taking some of the most impoverished Jewish 
kids from Boyle Heights, a local community here, and shipping 
them off to camp for a couple weeks to fatten them up. Many of 
those kids ended up becoming a part of our Little Brother 
program.
    Now if you flash forward to post-World War II, you see the 
demographics of Los Angeles community changing again. As many 
of the earlier settlers of the Jewish community began picking 
themselves up from economic despair and beginning to thrive, we 
saw a new community of need developing with the Hispanic and 
African-American influx in that same neighborhood of Boyle 
Heights. As our community changed, so did our agency. While our 
Big Brother/Little Brother program retained its roots as a 
Jewish-only program, our Camp Max Straus operation flourished 
as we diversified.
    Today, we run numerous non-denominational programs; our 
historic residential camp, a wilderness backpacking program, a 
sports mentoring program, college scholarships, and most 
recently, yesterday in fact, the launching of a new arts 
mentoring program.
    In addition to our programmatic success, we have undertaken 
a significant organizational restructuring that began several 
years ago prior to my arrival. Non-profits have been under 
pressure and under attack, as any other industry, for greater 
accountability and transparency. Our Board of Trustees 
numbering 70 recognized the importance of taking on the 21st 
century with a new approach. They decided that the organization 
needed to be run like any other business; with focus on the 
bottom-line while still maintaining compassion through service 
delivery. They left no rock unturned as they completely 
reorganized the operation, including plucking me out of an 11-
year software industry career to come run the agency.
    Now why am I sharing this piece of information with you? I 
thought it was important before closing, that you see Jewish 
Big Brothers Big Sisters of Los Angeles is on the cutting edge 
of the changes occurring in the nonprofit industry. And I think 
it is important because it translates to survival and relevancy 
to the community that we serve.
    In closing, I wanted to share that out of the 1500 children 
we serve every year, 80 percent are non-Jews. Now why is that 
an important statistic? Perhaps it is not. Perhaps it is only a 
byproduct of who needs the most help in our community. But 
that's not what I want you to walk away with today. The message 
I want you to walk away with, is the same message I urge my 
Board of Trustees to focus on, and that is the importance of 
our role in the Los Angeles community.
    Our role is to foster Jewish core values. Our role is to 
provide a destination for Jews interested in serving the 
community and volunteering their time or money, irrespective of 
the constituency being served. Our role is provide the 
infrastructure necessary for passing on to future generations 
of Jews what Tikkun Olam means.
    Thank you.
    [The prepared statement of Mr. Gold follows:]

    [GRAPHIC] [TIFF OMITTED] T4157.024
    
    [GRAPHIC] [TIFF OMITTED] T4157.025
    
    Mr. Souder. Thank you very much.
    The third witness is Pastor John Baker, Celebrate Recovery 
of Lake Forest.
    Pastor Baker. Chairman Souder, I want to thank you for 
allowing me the opportunity to testify today. And I would like 
to give you a brief history of Celebrate Recovery program and 
its effectiveness in the community. It is part of Saddleback 
Church in Lake Forest, CA.
    Celebrate Recovery started on November 21,1991, it has been 
going ever since.
    I should have reintroduced myself. I would like to have the 
opportunity to do that to you as a believer who struggles with 
alcoholism. I have not always been a pastor. I was a successful 
businessman and also a functional alcoholic. To make a long 
story short, I abused alcohol for almost 19 years, I hit my 
bottom and almost lost my family. My family was attending 
Saddleback Church and asked me to go with them. It was there 
that I was reunited with my Higher Power of my youth. He has a 
name, Jesus Christ. God led me to start a Biblically based 
recovery program at Saddleback called Celebrate Recovery.
    At that time, our church had about 5,000 members. Today we 
have an attendance of over 15,000 on a weekend. In the last 12 
years over 6,000 courageous individuals have gone through the 
Celebrate Recovery program at Saddleback. Celebrate Recovery is 
the No. 1 outreach program at Saddleback Church. Over 70 
percent of the 800 to 900 individuals that attend Celebrate 
Recovery each week come from outside the church family. They 
come from the community. But God had much bigger plans than 
that.
    Rick Warren, Saddleback's senior pastor, and I wrote the 
Celebrate Recovery curriculum. It has been published and is
    now being used by over 2,500 churches of all different 
denominations in the United States and internationally. The 
Spanish translation was just released last year.
    What was really exciting is to see how the program has been 
successful in helping those in halfway houses, rescue missions, 
jails, and prisons.
    Just a couple of specific examples. In halfway houses over 
the last 5 years recovery homes have been bringing their 
residents to Celebrate Recovery at Saddleback church. 
Attendance is voluntary for each individual. We have had 
individuals that have lived in the recovery homes, completed 
their program, returned home, find a local church, and help 
start Celebrate Recovery programs in their community.
    Rescue missions. In December 2000, the Orange County Rescue 
Mission asked if we could supply them leaders and help start 
Celebrate Recovery program for their women's and men's 
facilities at the mission. After 2 years of multiple step 
studies, 82 of the residents have completed the Celebrate 
Recovery program.
    The rescue mission chaplains went through the Celebrate 
Recovery leadership training. Today we have transitioned the 
running of the mission's Celebrate Recovery program completely 
over to the mission staff.
    The following remarks are from Tommy, who completed the 
Celebrate Recovery step study at the mission this last April. 
``I was homeless and a drunk. I tried a few AA programs but 
nothing could fill the empty spot in my soul. My year spent in 
Vietnam would keep coming back, so to put it out of my mind, I 
would drink. I got into a knife fight in a park and decided 
that I could no longer go on living that way. I came to the 
Mission. Celebrate Recovery gave me a chance to get right with 
God, work through the step study, and resolved my issues of the 
past. I am serving as a step study leader giving back to the 
Celebrate Recovery program that gave me so much to me.'' Tommy 
has completed welding school and is now working in his field.
    And finally, in jails and prisons. In 1999, the State of 
New Mexico began testing the Celebrate Recovery program as an 
addition to their therapeutic treatment programs. It started at 
the Southern Correctional facility at Los Cruz, New Mexico. The 
inmates volunteered to be in the program through the prison 
chaplain. They were placed in separate faith-based recovery 
pods for 12 to 18 months. The program has now expanded to five 
additional New Mexico State prisons.
    In the last 3 years, over 1,000 inmates have participated 
in the New Mexico Celebrate Recovery program. The recidivism 
rate in New Mexico is 78 percent. To date, 167 inmates who have 
completed the Celebrate Recovery program have been released for 
over 1 year.
    Only 13 have returned into the system, which is an 
unofficial recidivism rate of 7.8 percent.
    This is what the program has meant to Leticia, 1 of those 
167, ``During my incarceration, I began attending Celebrate 
Recovery. The program opened my heart and mind that got me on 
my way to the `real' recovery and gave me hope. I found the 
courage to `accept the things I cannot change,' but to use the 
time in prison to change the things I can. Upon my release, I 
continued applying the principles to life and of course 
continued reading the Scriptures. They have both helped me to 
maintain a drug free life, which in turn helped me obtain 
employment and become a productive member of society once 
again.''
    It is my opinion that Celebrate Recovery should be made 
available in all correctional facilities; not only for the 
residents, but for the staff also. We all have issues, whether 
we are behind bars or imprisoned in our minds and hearts.
    Celebrate Recovery is just starting in the California State 
Prison system. At the Jamestown facility, 135 men have 
volunteered to be in one of the 11 Celebrate Recovery groups. 
This is just a drop in the bucket of the California State 
system. Currently there are 165,000 inmates in the system.
    A unique advantage to the Celebrate Recovery program for 
prisoners is that while the inmate is getting recovery inside; 
their family can get recovery and support from a church in 
their area that has the Celebrate Recovery program. Also, when 
the inmate is released they can get immediate connection and 
support from a local Celebrate Recovery church.
    Again, these are just a few of the specific examples that 
are being duplicated in communities all over the United States.
    In closing, I believe that recovery from our life's hurts, 
hang-ups, and habits is a family matter. Our addictions and 
compulsions affect not only our families, but all those around 
us as well. At Celebrate Recovery we provide groups not only 
for recovery from drugs and alcohol but from sexual abuse, 
sexual addiction, anger, adult children of the chemically 
addicted, financial recovery, codependency and eating 
addictions. We also currently have curriculum for elementary, 
junior high and high school ages.
    If you would like to find out more information on Celebrate 
Recovery go to our Web site: www.celebraterecovery.com.
    Thank you for letting me share.
    [The prepared statement of Pastor Baker follows:]

    [GRAPHIC] [TIFF OMITTED] T4157.026
    
    [GRAPHIC] [TIFF OMITTED] T4157.027
    
    [GRAPHIC] [TIFF OMITTED] T4157.028
    
    [GRAPHIC] [TIFF OMITTED] T4157.029
    
    [GRAPHIC] [TIFF OMITTED] T4157.030
    
    Mr. Souder. Thank you.
    Next to Mr. Allen, Steve Allen who is director of Social 
Services for the Salvation Army in Los Angeles.
    Mr. Allen. Thank you, Chairman Souder. It is good to be 
here, and I have enjoyed listening to some of the discussion. 
Very interesting.
    I am going to start by just reading the Salvation Army 
mission statement, if that is OK.
    The Salvation Army, an international movement, is an 
evangelical part of the universal Christian church. Its message 
is based on the Bible. Its ministry is motivated by the love of 
God. Its mission is to preach the gospel of Jesus Christ and to 
meet human needs in his name without discrimination.
    The Salvation Army is a very old organization, going all 
the way back to 1865. It started in England and came to the 
United States, this part of the world, in 1885. And I submitted 
to you a list of 16 of the programs that are operating in the 
Los Angeles area, 16 out of the 25 that we have here. And in a 
short amount of time I am hoping to just maybe touch on two or 
three of the programs and give you some of the highlights.
    Any given night we have something in the region of 2,500 
men, women and children sleeping in our facilities. And I would 
just like to draw attention to the Harbor Light program, which 
is on Skid Row. It's a 280 bed facility.
    And reading the question about how faith-based 
organizations serve the people, comparing it to my time of 10 
years as a probation officer back in England working for the 
government and then looking at the staff we have here, it is 
interesting making the comparisons.
    One of the things I have noticed working here in the 9 
years that I have held this position is the passion and the 
drive from some of the staff there, many of whom come through 
the program.
    It is interesting to see the success rates. We have 
something in the region of 67 percent who successfully graduate 
from the program. That is after the 14 day primary phase. And 
it is really important to be clear on that, because statistics 
can be given a lot of ways. After that 14 day primary period, 
67 percent successfully graduate from the program.
    And I want to share a story of a man called Conrad Watson, 
who in 1982 came through the program. Lasted 2 weeks and 
flunked out. A year later he decided to come back again in 1983 
and the same thing happened. He lasted about a month. And he 
was one that would be classed as a failure rate, but he is 
quick to share with us that on the third time that he came 
through in 1984 he successfully completed the program. He found 
employment with the Salvation Army. He gradually made his way 
through the ranks. And I am very happy to report today that 
after 20 years, he is now the executive director responsible 
for the 68 staff that operate in that center. And he is a real 
great testimony.
    And I was on the phone to him this morning and I want to 
share his story. And he said absolutely. He thanks God every 
day for his blessings and what has happened in his life. He is 
one of many who have come through the programs, and probably 
about 65 percent of the staff that is incorporated in that 
program came through. And it is wonderful that they can share 
their experiences and pass that on.
    And I want to draw your attention to Bell Shelter, which is 
No. 2 on the list that I submitted. That's a 350 bed facility 
for men and women.
    Bell Shelter is 75,000 feet in the city of Bell. It offers 
a comprehensive program which includes emergency shelter, 
skills acquisition, transitional housing and substance abuse 
recovery for 350 homeless men and women. Bell Shelter also 
offers medical assistance, counseling and weekly chapel 
services aimed at providing a recovery experience that 
ministers to the whole person, mind, body and soul.
    It is interesting that we have had a new mental health 
program that provides onsite assessment and treatment for 
homeless men and women who are mentally ill or dual diagnosed 
with mental illnesses and substance abuse.
    When talking again about the faith-based initiative, here 
we are with government money in a very large program, actually 
based on Federal property, and yet if I took you down on a 
Thursday night, I could take you to the service with 180 men 
and women. Very, very exciting, accelerating service, but it is 
voluntary. And I think that is where we see the success. It is 
very important that we give that option, and as long as it is 
voluntary, as long as there are other options to be able to 
participate in, we find that it is a very good way of reaching 
out to people. And as long as you make it vibrant and exciting 
and it connects, then we have found a lot of success in that 
area.
    And we have a youth center, the Red Shield Youth Center in 
Pico-Union that has 4,000 members. We do a lot of intervention 
with gangs there. It's an oasis for the young people living out 
there. The primary focus at Red Shield is to encourage kids to 
stay in school and build skills for the future. Children 
participate in soccer, tutoring, basketball, baseball, karate, 
ballet, swimming, scouting, computer learning and arts 
programs. And all-day On Track program is also offered for 
students on break from year round school.
    Again, we offer a voluntary Sunday school where we have 
about 400 who attend. We have a Bible study in Spanish for the 
parents, about 80 of them would like to attend. And this is 
another example of the way you can marry them up and there is 
never a problem with the programmatic part and also staying 
true to the gospel message that we want to deliver.
    Finally, I draw your attention to Alegria, which is a 
residential care facility for homeless families with HIV/AIDS. 
The program provides housing and comprehensive services for up 
to 44 families, including a licensed child care facility for 70 
children and 29 family apartment units, making it one of the 
largest of its kind.
    This is a very interesting program. Its recently expanded. 
It is in Silver Lake, Hollywood. And, you know, a wonderful 
example of what can be done in a much needed area as the AIDS 
community.
    I have still got a tiny bit of time so I will go on to one 
more program. Booth Memorial Center is over 100 years old. Its 
served pregnant and parenting young women. Now it is a 103 
years, to be exact. Its name is in honor of the Salvation 
Army's founder, William Booth. And the center serves as a 
licensed group home facility for 56 teenagers. It is now 
expanded. For babies as well as other trouble adolescent girls. 
And it is also located on site and is a licensed childcare 
center for more than 75 children. And what has really been 
helpful has been the high school which we brought on board 
about 5 years ago. Because you can imagine some of the problems 
we had when we are getting 56 girls ready for school in the 
morning, 15 different minibuses and someone would get suspended 
up to 2 weeks. So the problems that they experienced, being 
level 12 in a group home, were very challenging. And now that 
we have our own onsite school, we have seen huge success. And 
we had seven graduates last year. This is through the L.A. 
Unified School District. And a greater understanding between 
the residential staff and the school staff, and with the 
similar complexities that we have dealing with these girls. So 
that has been very successful.
    I am confused. It says stop, but it has 2 minutes and 10 
remaining. Is that still time to talk?
    Mr. Souder. No. If you want to add something you can. I 
think that is the amount you went over the 5.
    Mr. Allen. Just one quick thing. I am just going to talk 
about the two camps that we have in Malibu, Camp Gilmore and 
Camp Mt. Crags. This is kind of interesting because we have 
2,500 children every summer that would use that. Like many 
other camps, it is very successful with the kids. But we tried 
one very interesting experiment and we took 150 men and women 
who are in substance abuse recovery to that camp for a 5-day 
program, which we have never tried before. We did this 6 years 
ago, and we have been doing since because the 5-day camp was so 
successful. I mean, these men and women, some of them have 
never seen the countryside, they have never seen the hills, the 
Malibu mountains. And we had like a recreational camp with an 
AA component to it, men and women's track and a strong gospel 
theme running through it. And I feel that was really 
instrumental when we analyzed the statistical data of that 150 
men and women who came out who were all in recovery, the 
success rate from the 67 percent on completing the programs, 
went up to 81 percent. I thought maybe that was a fluke the 
first year. But every year we have monitored that and it is a 
very similar type of statistic. Interesting to see that kind of 
emphasis on a 5-day camp would have such an impact on so many 
men and women.
    I will stop right there.
    [The prepared statement of Mr. Allen follows:]

    [GRAPHIC] [TIFF OMITTED] T4157.031
    
    [GRAPHIC] [TIFF OMITTED] T4157.032
    
    [GRAPHIC] [TIFF OMITTED] T4157.033
    
    [GRAPHIC] [TIFF OMITTED] T4157.034
    
    Mr. Souder. All right. Thank you very much.
    Our last witness, our cleanup batter for the two panels is 
Tim Hooten, executive director, Office of Ministry and Service 
at Azusa Pacific University in Azusa, CA.
    Mr. Hooten. Thank you, Chairman Souder.
    Let me tell you a little bit about who we are. Azusa 
Pacific University is a private Christian liberal arts 
university. Now we have grown very quickly in the past 10 
years. We have roughly 9,000 students and that includes our 
satellite campuses here in southern California. But our 
undergrad is roughly around 3,500.
    And I represent the Office of Ministry and Service. And at 
APU we have a requirement, like it sounds like you had out at 
Notre Dame, that all of our students get involved in the 
community. And so that means I have a student staff of 20 and a 
volunteer force of 3,500 to work throughout the San Gabriel 
Valley. The burden we carry, or the joy, is to connect those 
students to ministry opportunities or outreach opportunities 
throughout the San Gabriel Valley and especially in our 
neighborhood there in the city of Azusa that is 60 percent 
Latino and there is a majority of people who live at or below 
the poverty level.
    It is very different than its neighboring community 
Glendora. Just when you cross the street, and we are right at 
that border. And so in the last 10 years we have established 
many initiatives to become more acquainted with the city of 
Azusa than the city of Glendora. And our students tend to 
represent the demographic of Glendora rather than the city of 
Azusa, too. So in some ways we are a fish out of water and 
because what we believe about what the New Testament says and 
what it means to be a Christian, and we feel that there are 
many Christian groups out there, churches and otherwise who 
have not quite understood the message of Christ, that what the 
church is is a group of people who are community oriented. Not 
about itself. If its about itself, then it is not about the 
community. And so we try to teach our students that, and we do 
that in practice by getting them out there.
    You know, we do not have the traditional student quite as 
much as we used to. We used to alway says four semesters, or 4 
years and now that becomes 5 or 6 years because of the cost of 
education. But every semester, basically, that they are in 
school they are out in the community doing ministry. And we 
also encourage them to get involved whatever their academic 
choices are, the major that they choose, really they have a 
minor of community justice and social activism, because it is 
required.
    There are only three things that are required at APU. And 
those are going to class, which you've got to do to get a 
college degree. Going to chapel and then also to do community 
service.
    So in my office, we think of ourselves as a catalyst, a 
conduit, a motivator and mobilizer. I have a staff of 18 
students who oversee community development, but then they also 
mobilize students to other agencies that we just support. And 
the local ones that we are involved with. There's a counseling 
center started by the university, a health clinic, and the 
Foothill AIDS project is an agency that we send students to.
    Also something that we started called Day of Champions. 
Because we have so many young people in the city of Azusa who 
love soccer but they cannot afford an expensive 1 week long 
soccer clinic, we bring in a semi-professional soccer team and 
do a free one for them on a Saturday. And then the following 
Saturdays after that we followup with them with our mens and 
womens soccer team.
    And we also try to connect those types of ministries to 
local churches.
    Way is Walking with Azusa's Youth. It is sort of a big 
brother/big sister but it is academic mentoring. And so we 
teach them how to use computers. It's relational as well as 
academic support. And that was started by an APU student last 
year who works in my office.
    Cerritos Kids is a big win for us. We purchased a property. 
We did not want to displace the people who lived in those 
apartments, we being the university. We did not want to 
displace the people living there. And so we have increased 
their standard of living there, but we took a social work class 
over there to do a needs assessment to find out how can we 
support them outside of just giving them a place to live, that 
we are actually not giving them, they are paying rent for. But 
they said we need an after school program for our kids. So they 
are in the middle of this big apartment complex. We have 
between 50 and 150 children who are getting academic support 
after school, and that is all done, I joke about this, but we 
have mandatory volunteers. And so on a voluntary basis, once 
the students get involved, their hearts really get into it and 
I see that with the feedback sheets that we get from those 
students from semester to semester.
    Peach Factory is a 30 year old after school program. It is 
very similar to the one I just described. We also have Gateway 
for teen moms. And these are mentoring programs.
    And then City Links is something I am really excited about 
that we started only a few years ago. And I think somebody else 
described in the last panel something very similar to it, where 
we get all of the social agencies locally together and we have 
a big celebration of the ongoing service that is happening. And 
the morning we spend out at the community at 20 to 30 different 
sites where we are doing work projects. And then we come back 
together to celebrate it with free food and give aways and 
music, etc.
    We have urban outreach down here in L.A.
    How am I doing on my time? I am over already.
    This weekend I spent down here in Los Angeles with my 
student staff in some teen development and training, but also 
to work there at Union Rescue Ministries at the mission there. 
And it reminded me, my students are so excited about what they 
are doing and they understand that at the university we are 
training them for their future, but we want to put them on a 
trajectory no matter what their professional choices are, that 
their vocation is going to be service. No matter what they do, 
whether they are teachers or lawyers or doctors or in public 
policy, that no matter what, it is service and that should grow 
out of their love for Christ and their faith. Because not all 
students at APU are Christians.
    I also was reminded of a few years ago, our urban program 
is Hope for the Homeless and it's one that another agency runs 
but we send a bunch of students, like 50 to 150 students every 
weekend down to Hope for the Homeless where they pass out food 
and clothing, etc. and have relationships with the homeless 
people.
    And it was right before Thanksgiving and this gal put a 
sign on the door. It was the student mobilizer for this. 
Because she was going out of town and she wanted to let all of 
her volunteers know that it was not happening. And so without 
thinking, she put a sign on the door that said ``There will be 
no hope for the homeless this Thanksgiving'' and signed her 
name.
    And I saw that, and I just laughed so hard when I saw that. 
You think about what the meaning of the sign that you put on 
the door. But what that reminds me of, though, is that without 
agencies, without a university like APU and others like it and 
these agencies represented today, I believe there is no hope 
for the homeless. And I believe there is no hope for the 
fatherless and the voiceless and the powerless. And I feel that 
because we are there, because we are present, because we are 
doing what we are doing and we do it at a foundational level 
that there is hope for the homeless and there are surrogate 
fathers for the fatherless and there are children who are 
getting excited about the possibility of even going to college 
where in their families the idea would never be supported.
    And so it is a privilege to share that little bit. And I 
wish I had a written statement, but I just got the call. So I 
am glad that I could even be here.
    Mr. Souder. Yes, thank you very much.
    I want to thank each of your for your testimony. Now I want 
to go through some questions and followup.
    I have a question for Pastor Baker. Your basic thrust is 
alcoholism but you deal with drug addiction, and also other 
drug addictions such as marijuana, cocaine, heroin?
    Pastor Baker. Yes. Yes. All of them. Every one of them.
    Mr. Souder. Are your programs different for the different 
drugs?
    Pastor Baker. No. We found that, like in the secular 
recovery models of AA and NA, they separate them out. We call 
our groups chemical dependencies. It is all really basically 
that you are addicted to a chemical and so we put them 
together. Because a lot of our guys and ladies have been 
multiple. They are in different stages of some use drugs and 
alcohol, and some just use one or the other. So we have 
combined them and it seems to have worked well over the years.
    Mr. Souder. Have you talked to Director Walters? Do you 
know what ONDCP is, Office of National Drug Control Policy and 
Director John Walters, who is commonly called the drug czar.
    Pastor Baker. OK.
    Mr. Souder. Barry McCaffery was and Bill Bennett. You have 
never been in touch with their office?
    Pastor Baker. No, sir.
    Mr. Souder. One of our other main projects for this 2 year 
cycle in addition to the faith-based efforts is drug treatment.
    Pastor Baker. Right.
    Mr. Souder. Our committee, as you may have heard me 
mention, is the primary narcotics committee, which means I have 
been to Colombia 10 times in the last 7 years. And we spend a 
lot of time down in Central and South America with those 
countries, which leads us into immigration questions, trade 
questions and those things as well as narcotics questions. But 
we spend a lot of time with intradiction, but we are trying to 
focus more on treatment and how clearly to the degree we can 
get drugs eradicated before they start and catch them before 
they come here and then at the border, and then by the big 
dealers before they get down to the street user, that's 
preferable. But at the same time there is a percentage that if 
we could get them off the addiction, we would address the drug 
problem, too.
    Pastor Baker. Right.
    Mr. Souder. I am not a believer that is the only way. I 
think there is a lot of mythology that is the primary way, 
because for every new addict a certain percent of those will be 
long term addicts. But those long term addicts in addition to 
helping them as individuals, are a very high risk to society if 
you look at from the taxpayer's side in addition to the 
individual.
    The President has a proposal which will be hotly debated 
this year as one of the legislative branches of the faith-based 
argument to allow groups that are faith-based to be eligible, 
and this is what has prompted the kind of renewal of the 
argument this year. It is in my opinion absolutely legally 
clear that unless there are choices in a community, that is not 
going to be allowed.
    In other words, if you are in a small town and you have a 
mix of Muslim, Buddhists, Christian and there is only one 
Muslim group there or one Christian group, you cannot force 
everybody else to do it. But in most places in drug treatment 
that are multiple options. And the question is can faith-based 
organizations be included in drug treatment.
    With such a large effort, I would definitely like to do a 
followup. Nick Coleman is one person you will get a call from 
on our staff, but we need to get you matched up with ONDCP. Our 
committee has both authorizing and oversight. We are redoing 
their legislation now. The Senate has passed a bill or is 
coming up with a bill slightly different than ours, mostly on 
border control issues.
    Pastor Baker. That is exciting.
    Mr. Souder. But we need to get you matched up with your 
program.
    The second thing is Congressman Frank Wolf from Virginia. 
If you have any video of your programs in the New Mexico 
prison. I don't know how far along, how far along is the 
California prison?
    Pastor Baker. It actually just began.
    Mr. Souder. But particularly in New Mexico?
    Pastor Baker. Right.
    Mr. Souder. Chairman Wolf heads the appropriations on the 
Justice Committee. He is very interested in innovative programs 
and we have worked with Chuck Colson for years in Prison 
Fellowship. At our San Antonio hearing we had the people in 
from Sugarland in Texas and worked with some of their prison 
initiatives. And they were at one of our earlier hearings like 
this in Nashville. I do not remember the name of the group that 
is in all those prisons around the country. They are in 28 
States. Theirs is not as direct of a faith-based, but they have 
character programs, literacy programs. And both he and I are 
particularly interested on the majority side in what we are 
doing in the prison population, purely voluntary, but we have 
seen just dramatic changes in recidivism.
    Also a Democratic member of this committee, Danny Davis, 
I'm the Republican lead on a housing bill for prisoners.
    But with those two programs we are going to have some 
followup with in particular, but I wanted to because of the 
scale of your program and some of your recidivism rates 
questions, and it is a little bit different than what we have 
seen.
    The Salvation Army has a tremendous range of programs here 
in Los Angeles. Is this one of the largest, obviously, Los 
Angeles is one of the two largest cities. Chicago is a big one.
    Mr. Allen. Yes. Los Angeles, New York and Chicago.
    Mr. Souder. Is this a similar diversity of the programs 
that you would have in the----
    Mr. Allen. Absolutely. Yes. Yes. I mean, I have given you 
16 here outlined. There are far more. I just wanted to be 
fairly concise in this. Probably about 25, 26 just in L.A. 
County alone. Very diverse. All the way from child care going 
up to senior housing.
    Mr. Souder. If you could as a supplement give us, any of 
you, your different programs to kind of see what we are talking 
through supplement with that. And give us a little perspective. 
I think what would be helpful, you never know how these hearing 
records are going to be viewed over the years. Because this 
will be published in about 6 months in a hearing booklet form.
    What I know, having worked with this issue from the start 
from the early 1980's when I worked for then Congressman Daniel 
Coats with the Children Family Committee through the Senate as 
a staffer and now as a House member, that there are only about 
two or three substantive hearings in 15 years, other than the 
legal debate. And so this bank of hearings people are going to 
go through.
    And we have had a pretty good debate at every single 
hearing. And, Mr. Gold, I hope you didn't feel at all 
intimidated. This is probably the most overtly evangelical 
total panels of the two we have had. We usually have a mix, but 
we have had the Catholic, Jewish, Lutheran; pretty much the 
diversity at the different groups. Although clearly the thrust 
of this is toward more flexibility in faith-based organizations 
in these hearings. We want to make sure we air the debate. Our 
committee is very diverse on both sides.
    And in our final report we will probably have the things we 
agree on, and that is the importance of serving everybody, the 
importance of reaching to the poor. Probably we have been able 
to work out the tax credit or deduction part. The training 
part, where we will probably have the majority and minority 
views, is whether any direct government funds should go in. And 
then the whole range of questions that I am going to get into 
in a minute.
    Let me ask Mr. Gold, one of the things that has been very 
interesting for me to hear articulated in different ways are 
different religious traditions and how they approach in their 
motivation for getting involved. And certainly the Jewish 
tradition has had probably the longest of social support in the 
community, not only their own but beyond that.
    At the end it was real interesting because in your 
definition of your agency, you are clearly serving mostly non-
Jews but you defined it as a role to provide a definition for 
Jews interested in serving the community. Are non-Jews on your 
board or allowed to volunteer in your organization, too?
    Mr. Gold. No and yes. There are not currently any non-Jews 
on our board, but with the exception of our Big Brothers, who 
have to be Jewish to be a Jewish Big Brother, but for our other 
mentoring programs there is no limitation. We accept everyone 
and everything, however we certainly try to promote within the 
Jewish community, hey, if you are Jewish and you want to 
volunteer, this is a place where you can do it. But we do not 
limit.
    Mr. Souder. Would it change the nature of your organization 
if it became 50 percent protestant?
    Mr. Gold. I do not think so.
    Mr. Souder. It would not change the service to the 
individuals?
    Mr. Gold. No.
    Mr. Souder. But would Jews then view it as much of a place 
for a Jewish person to go to volunteer?
    Mr. Gold. That's a very interesting question.
    Mr. Souder. You have entered into a zone, and what it got 
me to thinking about, because you had a very unusual wording 
that would be different than kind of a fundamental type 
approach that I would have.
    Mr. Gold. Right.
    Mr. Souder. Or it would not be an orthodox Jewish approach? 
It is also does not appear to be a liberal Jewish approach to 
it. Because it was an identification of a community. When we 
have asked this question in the African-American community, for 
example, one of the fundamental questions is to what degree do 
you mandate that you have to hire people of like mind or, as we 
got into an even more explosive question, indigenous 
population? Which is another way of saying if it is in a poor 
neighborhood, do most of your employees have to live in the 
poor neighborhood? Do they have to be poor? If you are an 
African-American community, what community has to be through 
affirmative action? Can it be African-American? And at what 
point if an organization does not reflect that group, will it 
cease to be the Jewish boys and girls or Big Brothers/Big 
Sisters and not be an identified place for that group to go 
volunteer, even if there is philosophical opposition?
    Mr. Gold. Yes.
    Mr. Souder. One way people get around it is, they would say 
like on the first panel there was a statement of mission. And 
to some degree, you would think for example if you were a hard 
core fundamentalist Christian you probably would not volunteer 
to be part of the Big Brothers/Big Sisters that has Jewish in 
its name. You would not necessarily feel comfortable. On the 
other hand, that is kind of a cop out type question because the 
real fundamental question is how much is the Jewish identity 
part of it and is it a historical faith-based organization? In 
other words, we were founded by Jews.
    Mr. Gold. Sure.
    Mr. Souder. Or is it something that is really because of 
the Jewish identity and part of their faith is an outreach out 
of their faith, and that is a critical component of which at 
least a majority, if not everybody, has to share or it no 
longer is a Jewish boys and girls organization.
    Mr. Gold. Yes.
    Mr. Souder. It is just boys and girls.
    Mr. Gold. That is a great question. This is obviously a 
very difficult issue that has been debated within the Jewish 
community and the community at large.
    Mr. Souder. Almost as much in Israel as who is a Jew?
    Mr. Gold. Exactly. I mean, you are asking me to define how 
Jewish you are, and the latest demographic studies that have 
been done on how Jews are defined continues to evolve. And then 
if you get into a room with, you know, 12 Rabbis, you will get 
24 opinions.
    And, unfortunately, I have a lot of Jewish attorneys on 
board. So I have even a bigger issue.
    But I think fundamentally our agency certainly started as 
very much a Jewish organization; Jewish people, Jewish 
constituents served. It has grown over time because our society 
has changed.
    If you ask some of the more significant Jewish communal 
leaders in this town, the non-religious, the non-rabbinic, 
right? They will tell you that we are probably about 10 percent 
of the L.A. population, the Jewish people. That has changed 
over the last two or three generations.
    We see a need for serving the greater community as of 
utmost importance. Because as we continue to become a smaller 
and smaller portion of the community at large, we feel as 
though it secures our place in history by helping the community 
grow. And as the definition of a Jew changes, we are in essence 
investing in ourselves.
    If a person, for instance, is raised in a household where 
the mother was a Christian and the father was a Jew, depending 
on who you ask, some people will tell you that person is 
Jewish, some people will tell you that they are not.
    So as our religion has evolved, and there has always been 
again a divisive issue of whether religion or culture or race 
in and of itself, we see the need to serve all. But I could go 
back to Biblical stories of Moses and things taking care of the 
community at large and not just Jews. That is why Moses was 
chosen as the leader, because he just did not take care of 
himself. He took care of the community at large.
    So I think there is a little bit of historical significance 
to who we are as a culture. There is also a current communal 
issue and demographic issue that is occurring within the Los 
Angeles community alone, I cannot speak to the larger movement, 
that I think is pressing. Does that erode who we are as our 
identity? Does it make us any less Jewish and does it blend us 
with Big Brothers/Big Sisters of Greater L.A? Because there are 
actually three of us here. There is Big Brothers/Big Sisters of 
Greater L.A., Catholic Big Brothers/Big Sisters and Jewish Big 
Brothers/Big Sisters.
    Catholic actually does not really have any religious 
affiliation.
    So would we blend over time? Maybe I am not a predictor. I 
am very new to the Jewish community here. I am very new to the 
non-profit world, as I said earlier. I spent my career in 
software. I have been at this 18 months and I am learning a lot 
as I go. But as I talk to many communal leaders, and most 
importantly to the people that are involved in our agency, I 
think the most important thing to us is doing good for our 
community. Again, Tikkun Olam has no boundary on it. It is just 
repairing the world, healing the world.
    So does that not mean then if you are doing that you are 
kind of Jewish?
    Mr. Souder. Well, you have touched on something that I want 
to followup a little with Dr. Phillips. Because you have 
touched on what is really a deeply philosophical and 
motivational question.
    Let me give you an illustration in drug treatment. Well, 
let me use another illustration first.
    One of the dilemmas we have when we approach this whole 
legal question about hiring and firing is because there is 
still so much bigotry and prejudice in the country that 
whenever you talk about hiring practices, you get people up 
like this. But there are often double standards in our society, 
with all due respect, and I know I am even in touchy ground 
even to raise this subject.
    But for example, Sorenstam going in the men's PGA 
tournament. Is it substantially different than if the men went 
over in the LPGA? And is it because there has been past 
discrimination against women that is seen as an advance, 
whereas if you had boys going into little girls soccer leagues 
or basketball leagues conceivably they would dominate?
    And as a whole in Congress the Jewish Members of Congress 
are much more skeptical about faith-based for fear it is going 
to come up with some type of discrimination that is oriented 
toward them.
    And Blacks are confused. On the one hand they have been 
historic discriminators on race, but they are supportive in 
many cases of Black churches becoming Black churches and not 
being overtaken by White boards. And so it is kind of a 
dilemma.
    For example, on adoption, do you think that Black kids are 
better off in families with Black parents if you have a choice, 
and should that be mandated by government? All of a sudden, 
yes, you see sides splitting a little bit differently.
    As discrimination goes down, presumably people will be less 
threatened and as there are more options by people who choose 
to associate in subgroups if in fact you are not condemning the 
other subgroups. But in your statement, you inadvertently, I 
think in a sense of entering into the debate, raised something. 
And that is are there things that motivate certain people to 
volunteer that if you took the uniqueness out, they would not 
volunteer?
    So, for example, to go to Dr. Phillips for a minute, your 
organization is presumably mostly privately funded. Do you get 
any Federal dollars?
    Mr. Phillips. Not now.
    Mr. Souder. Do you believe that the people who give to your 
organization predominately give because you are an unabashed, 
unapologetic Christian organization?
    Mr. Phillips. I would say that is right, although one of 
our largest donors to the Watts Christian School happens to be 
Jewish.
    Mr. Souder. It is not uniformly that way?
    Mr. Phillips. No, it is not uniformly that way. But we are 
very careful to share with people exactly who we are. And, 
obviously, it is very hard to hide that the Watts Christian 
School is Christian because of the name. And then if you walk 
into this room and you see ``Jesus Christ, the same yesterday, 
today and forever,'' perhaps you would have a hint. ``Jesus is 
Lord,'' ``Rejoice in the Lord.'' It is hard to hide who we are, 
and we do not make an attempt to do that.
    I will preach in a church and I will preach out of Isaiah, 
Jeremiah, Amos and talk about the need for God's people to care 
for the poor. I will point out that there are more Scripture 
dealing with how God's people relate to the poor and the 
oppressed than any other subject in Scripture. And so if you 
really believe the Bible, then you have to go back to Isaiah 58 
where it talks about feeding the hungry, caring for the 
homeless. And if, in fact, you do those things, then God will 
shed His own glorious light upon you.
    Over and over Scripture says, ``if you care for the orphan, 
the widow, the stranger, the alien, the prisoner,'' then God 
will bless you. And, frankly, many churches desperately want to 
be involved in doing that and do not know how. And so we can 
provide a bridge.
    The Watts School has volunteers from all over southern 
California that come and not just give money, but give of them 
themselves, as all of our ministries across the country do.
    I was mentioning earlier the Good Samaritan Clinic where we 
have, I think, 25 or 30 doctors and dentists who on regular 
basis volunteer their time. And they do that because if they 
choose to, they can also share their faith with a patient who 
comes in who might say ``Why are you doing this?'' And they 
can, as it says in the New Testament, ``give a cup of cold 
water,'' but do it in the name of Christ.
    Mr. Souder. Let me ask you a question that actually, I do 
not know that I have ever heard it asked in Washington, but we 
get around the edges of it. Do you believe that what you were 
just saying there and your teachers, do you believe they are 
helping the poor because they are Christians or that they are 
helping the poor because they want to help the poor?
    Mr. Phillips. I think that the Christian does not have a 
Biblical alternative. And I cannot judge the motives of people, 
but I do know that the believer in Christ needs to have a 
relationship with the poor. You just cannot ignore that. It is 
what is commanded.
    Mr. Souder. Where this gets into it is some people say well 
can't you do the same thing without Christ?
    Mr. Phillips. I think people do. I think people do come and 
care for the poor and feed the hungry.
    Mr. Souder. In other words, I agree that people do. We can 
argue whether those are remnants of the Judeo-Christian 
teachings in the Old and New Testament or whether in fact 
secular humanism over time can sustain itself.
    Mr. Phillips. Yes.
    Mr. Souder. But what I would hypothesize, and I am trying 
to see whether you would agree and would it also be true of the 
college and others, is that if you drain out the motivation, 
would private Christian schools really be as effective if the 
teachers could not share their faith, if you did not have your 
symbols or is part of your effectiveness part of your faith? It 
is not to say that there are not some groups that are secularly 
effective, and we could argue why and what their histories are 
and so on. But the question is, is your ministry unique in part 
because people believe in Jesus Christ and believe that is a 
requirement? And if so, if that were taken out, what would 
happen to your ministry?
    Mr. Phillips. Yes, I believe the ministry is unique because 
we fear God and obey His commandments. And I think that if you 
take the salt and light, God-fearing people, out of a 
community, that it disintegrates. I think their very presence 
adds a preserving factor as salt does. I also think that 
without the moral values that you find in Scripture that talk 
about treating your neighbor as yourself, loving your neighbor 
as yourself, loving the Lord your God with all of your heart, 
mind and soul and your neighbor as yourself; without that, I 
think a community disintegrates.
    And so I think that to take the Christian aspect out of our 
ministry would destroy it. I think that the motivation for most 
people is probably not deeply thought out before they come. I 
think there is an emotional and then a willful determination 
that this is something that they ought to do. And because we 
fish among believers to get volunteers and to get missionaries 
and staff members who come and live here, I think that they 
realize that this is a very Biblical thing to do.
    You know, when Jesus announced that He was the Messiah, He 
quoted Isaiah 61 and He said He has come to preach the gospel 
to the poor, to heal the broken hearted, to set the captive 
free. And then a little later you find John the Baptist getting 
a little bit concerned about whether or not Jesus was the 
Messiah. John finds himself in prison about ready to lose his 
head, and he sends his disciples to Jesus and says, ``Are you 
really the Messiah,'' because I am about to die for this 
message. And Jesus tells John's disciples to go back and tell 
him that the poor have the gospel preached to them, the blind 
see, the lame walk, the deaf hear. That was all John needed to 
know, that Jesus was the Messiah because that was the messianic 
fulfillment of the Old Testament.
    And so someone comes and says ``Well, Representative 
Souder, are you a believer in Jesus Christ as your Lord and 
Savior?'' You could respond, ``The poor have the gospel 
preached to them, the blind see, the lame walk, the deaf 
hear.'' And that is good enough.
    And so I think that it is so integral in the Judeo-
Christian tradition that if you took that out, you would lose 
the effectiveness.
    Mr. Souder. So your basic argument is not that we have too 
much faith-based, but that we have too many faith organizations 
that do not practice their faith?
    Mr. Phillips. Absolutely. I think a lot of Christians and a 
lot of churches are not quite sure how to, you know, we live in 
a society that separates different segments of society and they 
do not know how to become involved.
    Mr. Souder. I wanted to followup on your specific list, 
which I really liked having a specific list. Let me see if I 
can find it here. On your list of 17, there are a couple of 
particulars. The school vouchers, an ongoing argument. The 
forgiving student loans for teachers, doctors and other staff 
working with the poor is an interesting wrinkle. We have tried 
to deal with this in underserved areas with tax incentives.
    Mr. Phillips. Well, let me address No. 1 because that is a 
very key thing. Azusa Pacific is a great university. How much 
does it cost for a student to go there each year?
    Mr. Hooten. Right now it is creeping up to $30,000.
    Mr. Phillips. OK. So you have a student that after 4 years 
of going to this great university, and I mean that sincerely, 
comes out with a debt of $40,000 to $60,000. So they want to 
come and work with a faith-based organization. Azusa has 
equipped them to do that. They have motivated them. They have 
thrown them out into the world. They invite me to come to 
chapel. People come and say I want to come, but the problem is 
I cannot afford it. They want to come and teach in the Watts 
Christian School. They want to work in a vocation, but they 
cannot afford it. That is the major, or a major, recruiting 
problem that we have today.
    At the Good Samaritan Clinic in Kansas, our first doctor 
had graduated, was it the University of Kansas or K State. Don, 
do you remember? KU. And they had some sort of a provision in 
Kansas that if you worked in a rural area, they would forgive 
debt. But when the State legislature saw what she was doing, 
they forgave all of her medical school debt, which enabled her 
to come and live on a missionary salary and serve the 
community. And actually, it was a great economic decision if 
you would refer to the former testimony.
    And so, anything that we can do to help people who are 
motivated but who are prevented from ministering to and living 
among the poor would be a great assistance to us because of the 
tremendous amount of debt they come out of schools with. And so 
I underscore that if you put some sort of a condition that if 
you lived and ministered among the poor for 5 years or 
something or a year for each school year, that your debt would 
be forgiven. That would greatly expand what we could do at this 
facility right here.
    You are sitting in a housing project. There are children 
all around. The limitation to the size of this school has to do 
with faculty who are willing to move into the community and 
teach here.
    Mr. Souder. Basically we have some bills in Congress and we 
need to see which ones are there, but in looking at the student 
loan, which is mostly focused on a merit goal, but there has 
been some look at the education question. I guess on the pay 
question, the differential would not be as great a question 
there.
    The tax incentives for volunteers and businesses which 
provide volunteer days, those are I think really strong 
proposals that if we do not have them, we will see that they 
get into the debate.
    Mr. Phillips. Let me tell you that No. 3 is not in the tax 
law. And let me explain to you what that could mean to an 
organization like us. If the roof goes out on this building, if 
a roofer donates the materials, he can write that off. If he 
comes and donates his labor, he cannot. And there are God-
fearing good people who have a heart for the ministry that you 
are sitting in who would donate both materials and labor if 
they could afford it.
    Mr. Souder. Let me tell you one of the things that I have 
heard. The similar thing on malpractice, which on the surface 
looked so logical to try to deal with.
    My friend George Miller from California, without putting 
words in his mouth and not saying he would oppose this. And I 
say my friend, honestly he was Democratic chairman of the 
Children, Family Committee when I worked there. But we do not 
agree on a lot of policies.
    When we propose things like the malpractice or giving tax 
incentives for some types of volunteers, what he would say is 
so you are saying that the poor should have more legal 
protections than the rich.
    Mr. Phillips. Yes.
    Mr. Souder. Similar for volunteers. Why should a doctor be 
able to deduct that and not somebody who works at a gas station 
who goes and donates their time?
    Mr. Phillips. Well, that is why if you read this, and I 
probably should have done even more of it, I started off with 
doctors, nurses and dentists and teachers and then I said and 
plumbers, electricians and other professionals who are donating 
time that they normally bill. And this could probably be an 
improved point if I wanted to.
    In other words, if in fact you bill for your time and you 
are willing to donate that to a non-profit that is helping the 
poor, it does seem to me that the time ought to be tax 
deductible as well as the materials.
    Mr. Souder. So you are going to turn it into a billing----
    Mr. Phillips. So an optometrist can come down to this 
school and donate his time and check your vision and could 
write off the glasses that he gives, but not the time for the 
examinations. That is the point of No. 3.
    Mr. Souder. I will tell you that the slippery slope here is 
that a laborer working on an assembly line really is only 
selling his time as well, and he could take a second job in the 
evening. The practical thing, and this is what we have to sort 
through in public policy, is that yes but the fact is we do not 
have enough doctors and nurses. So is our goal here to get the 
community served or is our goal here to reward certain people 
at the expense of other people?
    Mr. Phillips. Exactly.
    Mr. Souder [continuing]. Because this is the classic equity 
question. Do we want to lift all votes if it means some get 
richer and poorer. And that is one of the challenges here. But 
it certainly needs to be looked at because we do not know what 
to do with these underserved areas.
    Mr. Phillips. That is right.
    Mr. Souder. You have a number here that are very 
interesting because they involve Federal Government actions, 
which become much more explosive because these criteria would 
need to be available to all nonprofits, not just faith-based. 
But then we will zero in on the faith-based portions.
    I assume here in L.A. there is a lot of Federal property 
where there has been a lot of shifting and the question is, and 
you mentioned about vehicles, too, about putting them for sale 
and allowing faith-based groups to in effect--I have one bill, 
I will show you my diverse interest. I have a bill on 
lighthouses. And one of the things on lighthouses was as the 
Coast Guard is getting rid of all these lighthouses and the 
Department of Interior, who should get first crack at them? And 
if there have been volunteer groups that have sustained the 
lighthouses, they should get first crack, they should not go up 
for sale.
    And this is a similar type concept because I know we did it 
in lighthouses, therefore it is not impossible to do in other 
Federal property. But you would then get into do you really 
want, are we going to change the environmental liability? There 
are lots of questions with it, but you have raised a whole 
series of things that are fascinating, particularly in areas 
where you have a lot of government such as the buses to go to 
camps.
    Mr. Phillips. Exactly.
    Mr. Souder. Because we have buses everywhere.
    Mr. Phillips. Yes, you do.
    Mr. Souder. Mr. Allen, do you have any comments on these or 
any other suggestions you would want to add? I mean, it is 
fascinating to actually have a list to work off of, because 
part of the goals of these hearings are to say what can we do 
as a practical matter to forward the debate beyond where we 
have been stuck on just kind of traditional cash funds. Because 
in fact, if we donate buses, if we give tax incentives we are 
not saying, look, the local welfare department is not doing 
well enough, we are going to transfer it over to this faith-
based group. We are trying to expand the pie rather than argue 
over how to divide the pie.
    Mr. Phillips. That is exactly right.
    Mr. Allen. I would agree with Dr. Phillips on those 
comments as well. Absolutely. And I would like to see you take 
that discussion even further. There are a lot of points. We 
could be here for the rest of the afternoon just discussing 
some of those.
    Mr. Souder. We are looking hard for ways where we can 
expand. If we get a beachhead in one or two of these. The tax 
revenue side is the hardest. We have fought this kind of, what 
I would term, baby-step fight over non-itemizers below a 
certain income being able to take $50. And you would think we 
were asking for some kind of huge--it is an asterisk in the 
Federal budget. And you would think it is like some huge thing 
and yet it is even blocked right now.
    And so I have been willing to take whatever low number they 
have. Because once we get our foot in the door----
    Mr. Phillips. Exactly.
    Mr. Souder [continuing]. We will work for that forever to 
expand it. And I personally believe we should have gone for a 
tax deduction that broadened to more groups to build a broader 
base rather than just for, even though I believe the primary 
target should be the poor, quite frankly there just is not a 
big enough lobby. You have to have the environmental groups and 
the union foundations, and all that arguing for this, too, 
because there is just not enough constituency right now. And I 
am telling you, even in my district which is very religious 
where they know I have made this faith-based organizations and 
how to help them a primary thing, I will get 50 letters on 
that. But, man, you have one thing on taxing insurance buildup 
and I will get 3,000 letters on that. It is just a different 
dynamic in fighting for this, and that is why it has to be 
constant.
    Mr. Hooten, have you run into any problems with the 
statement of faith as you go out to do volunteering or 
different things?
    Mr. Hooten. No. Because of how ecumenical we are in our 
work in the community and also with the different kinds of 
outreaches that we start with the students with entrepreneurial 
vision and a desire to serve. They include community members in 
pulling these outreaches off and they do not ask. They just see 
that they have energy to be a part of it, and we do background 
checks to make sure that they are going to be safe with kids. 
But we do not ask them what their faith orientation is.
    Mr. Souder. Do you tell the students that they have to be 
cautious about sharing their faith while they are volunteering 
for another organization?
    Mr. Hooten. No. We do not say that they need to be cautious 
about that. We talk to them about what their personal 
motivation is in being out there. But we leave it up to them to 
be sensitive. We want them to go out, and this is a big point 
for me everywhere that I speak. That they need to go out as 
learners. And so they should not be there first to speak, 
whether it is about their faith or anything. They should be 
there first to listen and find out what the needs are and not 
assume that they know what the needs are in any given 
situation.
    Mr. Souder. Have you ever had any complaints from any 
organization that any of your students started sharing the 
faith and did not represent the organization?
    Mr. Hooten. No. Quite the opposite. Especially Foothill 
AIDS project, for instance. I had a phone call with their 
executive director recently and I just asked how are things 
going there. My question was with concern, like the concern 
that I am hearing behind your question, like are students 
causing a problem there. And he said, you know what? Your 
volunteers are my best volunteers because they really have a 
heart for these young men and women who are dying.
    Mr. Souder. And why do you believe they have that heart?
    Mr. Hooten. I believe because they feel that they are there 
to serve the Christ within the people that they are seeing. As 
far as my perspective on the New Testament, as a response to 
the Old Testament, is that when I serve someone, I am actually 
getting to serve Christ. So it is incarnational in that they be 
the presence of Christ as they serve Christ.
    Mr. Souder. What did you think of my comment in the first 
panel in responding to the question of grant writing? Have you 
ever looked at any of your department providing any kind of 
assistance on a systematic way to these groups as they seek 
funding?
    Mr. Hooten. Yes, sir. There are a couple of issues that we 
are dealing with at the university right now. You mentioned the 
issue of homosexuality. That is one that our board of trustees 
and president and other different schools are talking about. 
Because every employee of the university does have to sign a 
statement of faith. The students do not, but the employees do. 
And that is including faculty and staff.
    But I know, for instance, there was one grant that we were 
denied recently, and I believe that it was a State grant. And 
it had been transferred along with the professor who moved from 
one of the Cal State schools to Azusa Pacific University. And 
the Cal State school, they did not want it because she is the 
one who dreamed it up. They wanted her to take it with her, so 
when she moved to APU, she lost the grant because the school 
having a faith orientation. And all it was was to provide 
health services to the homeless.
    Mr. Souder. So it was not anything necessarily relevant to 
that, but they are basically saying a statement of faith that 
violates a civil rights issue in a local community or State 
makes you ineligible for that grant?
    Mr. Hooten. Yes, sir.
    Mr. Phillips. That is happening more and more to us, too. 
Not just grants with foundations, but even businesses.
    Mr. Souder. The Salvation Army in Chicago, obviously, has 
had a big issue with this. Has that happened in Los Angeles at 
all?
    Mr. Allen. Yes. We have had issues relating to the domestic 
partners and, obviously, we have had to pull out from certain 
contracts within the city because of that. So we have lost out 
on a lot of funding in respect to certain programs pertaining 
to the city.
    And, you know, we also face an uphill battle. I mean, when 
we first started in Bethesda House, which is a facility for 
families with AIDS in Los Angeles, at the time it was about 
1992. And in the AIDS community it was obviously predominately 
the gay men who were involved in this. And to come up with a 
Christian family model, it did not sit particularly well when 
we first showed up, as it were. And there was a lot of 
suspicion. But over the years, I think it was in 1997 it won 
the city award for excellence. And I guess they had to 
recognize the fact that the program spoke for itself. And 
gradually there has been an acceptance. So it can work both 
ways around as well.
    And it was important to be a presence there. It really did 
effect families. And, you know, it is important as we heard 
about salt and light, we have to be where we have to be. And 
that was a really important move to be involved in that 
process. And like I say, we expanded that facility about 2 
years ago into Silver Lake where we now provide services for up 
to 44 families at any one time.
    Mr. Souder. Pastor Baker, in New Mexico when you are in the 
prisons, have you run into any of these types of debates?
    Pastor Baker. No, sir. New Mexico, I have made nine trips 
in the last 3 years. I sat down with the Secretary of 
Corrections all the way down to the people who receive the drug 
programs in prisons. And it has been accepted without any 
battle to date. And I keep praying that it will continue that 
way.
    I sat down with wardens who are not Christians and are glad 
to share that with me, but they also share what the program has 
meant to their facility and wish it could be expanded to more 
pods.
    Mr. Souder. With hoping not to open up a can of worms, why 
do you believe that we have run into less resistance in the 
prisons?
    Pastor Baker. Because I think everything else they have 
tried has failed. I think they have turned into warehouses. And 
I think if you really talk to somebody in the industry they 
will tell you that is what they have become. And they have 
looked at everything else. As a matter of fact, I won't give a 
name on this, but I have had a high ranking official tell me 
that we have tried everything else. The only thing left is 
Jesus Christ.
    Mr. Souder. There has also been a tradition of different 
faiths being able to go into the prisons.
    Pastor Baker. Yes.
    Mr. Souder. And in trying to look at that kind of model, 
because it is volunteer.
    Pastor Baker. Yes.
    Mr. Souder. No body is forced to go in.
    Pastor Baker. Right.
    Mr. Souder. You have a pattern of any faith who chooses to 
go in, can go in.
    Pastor Baker. Correct.
    Mr. Souder. So it is not exclusive. But in trying to figure 
out why that model is there is really fascinating as we plunge 
into other categories. Because clearly there is less 
resistance. Almost every State is experimenting with this 
because it is just miserable.
    Mr. Allen. Well, my experience with the sheriff in L.A. 
County jails is he wants to reduce the population. And he can 
see that programs, particularly faith-based programs, really 
work and really make an impact. And we have just recently 
established a program where we are actually picking up inmates 
now. Literally, when they come out of that jail, they have to 
make a decision whether they go this way or whether they go 
back to what they have known. And we have a great relationship 
with the Sheriff's Department where we can actually pick them 
up in a minibus and actually take them straight away to a 
program.
    It has even been taken further than that the Sheriff's 
Department have started preliminary work with these inmates 
knowing that if they are going to go to a certain program, they 
can start that process.
    So we have no resistance either. We have the same 
experience, particularly with the jail system and correctional 
services.
    Mr. Souder. I am going to take a couple of minutes, because 
I want to pursue this just a little bit farther.
    A couple of things. In recidivism, Pastor Baker you used 
some numbers, do you track them for some period of time after 
they have been out? How long?
    Pastor Baker. Basically after a year. And we have been 
doing it for 3 years. So we have had them go through the 
program. And probably the longest term of someone being outside 
has been about 18 months. So we do not have 10 years and seeing 
what is happening in 10 years. But we do know, and I believe 
pretty strongly in those numbers I gave, I said again they were 
artificial, but I got those from the States that----
    Mr. Souder. Do you know whether there is any kind of 
Federal effort? Because one of the frustrating things having 
worked with this for a long time is you never meet anybody 
whose recidivism is high. Now, you usually only get to meet a 
small percentage of the people.
    Pastor Baker. Right.
    Mr. Souder. But one of the things I wanted from the Federal 
standpoint, are you tracking them on an individual name-by-name 
basis?
    Pastor Baker. Yes.
    Mr. Souder. So if they go into another State system and not 
in New Mexico, you would still find them?
    Pastor Baker. We are not there yet, no. No, sir.
    Mr. Souder. OK. So we need some kind of Federal oversight 
idea if we are really going to track recidivism.
    Pastor Baker. Right.
    Mr. Souder. We need to know whether they are winding up in 
other States?
    Pastor Baker. Correct. Right.
    Mr. Souder. That would be true, however, of programs 
existing as well.
    Pastor Baker. Right.
    Mr. Souder. There is nothing like this. It is just when we 
try to zero in from the Federal level, we do not want to do 
this kind of like what we do in neighborhoods, is you jumped 
from one and then move over here. The goal is to change people.
    Pastor Baker. That is right.
    Mr. Souder. Not to have numbers.
    Have you at either the Salvation Army or in your programs, 
when somebody comes out of prison, do you also have: (a) 
followup programs for them after they have come out of prison, 
and; (b) what is your interaction with the governmental social 
service structure in matching?
    Pastor Baker. Well what we have been very successful in is 
because we have done two exercises for churches in New Mexico 
in the last 2 years trying to get more and more churches of all 
denominations to start Celebrate Recovery ministries in their 
church. Not just for their own people, they need them there, 
too, but also when the inmate is released, then they can 
immediately give them, if they are going to Hobbs, NM, some 
churches that have Celebrate Recovery programs so they can 
continue right on with their support system that they had in 
prison into the same program.
    And the other thing that we are finding is one of the key 
contributors to the recidivism rate being so high is they go 
back to the family who has not had any recovery and the same 
neighborhood and the same individuals, and their same actions. 
So if we can get their families into a recovery program while 
they are inside going through a recovery program, we will have 
just a changed life in prison, we have a changed life on the 
outside when they come back. And that is kind of a unique 
concept that we have.
    Mr. Allen. We did it slightly differently. It is not with 
primarily correction services. When they come out of the jail 
we would target, for instance, veterans groups which may make 
up something like a third of the homeless population. So we 
have a 200 bed facility in West L.A. on the VA campus which we 
work with. So we would be able to track certain statistical 
data, but it is not under the umbrella of the correctional 
services. They may go under the umbrella of the mental health 
program at Bell Shelter, and maybe with veterans it could be a 
substance abuse program. And so it is slightly different in the 
way we operate it. But, obviously, we keep good statistical 
data on that. And it could be tracked back, I guess.
    Mr. Souder. How do we sort through, and just state for the 
record, I kind of know what your answers are going to be to 
this. How much do you think the success is the program in the 
prison itself, and how much is the fact that you have the after 
care follow through because certainly we would improve 
recidivism if we just had organized after care follow through 
and the family recovery? Because we have programs for years 
that tried to deal with families, but we have not had kind of 
systematic. And then if you can also state for the record how 
much do you think the faith component of that is that?
    In other words, if we had a secular-based program that 
taught people literacy in the prisons, had a follow through 
where some people were helping them and they were supporting 
them in the community, would you have the same recidivism or do 
you think this is also a head change? And how is that for a 
setup?
    Pastor Baker. That is OK. I believe it is a heart change. 
And it comes from they do have the therapeutic models that they 
go through, and that they have to go through in the State of 
New Mexico. However, when they get out they can go to AA or NA. 
But I think there is a part of the program that I have seen in 
New Mexico that the churches are doing. It is a connection. It 
is when someone is paroled, we give them where to go and there 
are people there waiting for them. And it is an automatic 
acceptance.
    Where someone is coming out of prison, as someone shared 
earlier today, they still cannot find a job. And it is tough to 
come out with a record. And certainly to walk into a church, 
because it is pretty scary. So if they can walk in where people 
are waiting. Not walk in, but where somebody is bringing them 
to the church or to a facility like the Salvation Army does 
that they are going to get connected a lot quicker. And, of 
course, I believe the heart change is the biggest one. Because 
in prison you have heard a lot of conversion stories, but it is 
a conversion story and that is it. They go to a chapel service 
on a Sunday and some other group comes in on the next Sunday 
and they sit there for an hour and they go to church. But this 
is an actual program that if they work through it and if they 
are honest, it is going to allow Christ to change their life.
    Mr. Souder. The tough part of being a legislator, and there 
is not any other way of saying this other than this on the 
record. As an individual, their heart change I believe is 
really important for their eternal salvation.
    Pastor Baker. Yes.
    Mr. Souder. As a public figure what I am concerned about is 
when the taxpayers invest money is that important or not 
important? Because if it does not matter, then it would not 
matter in our public policy. But if in fact it does matter for 
a percentage, even if it is only 30 or 50 percent, then that 
ought to be a factor on how we do public policy.
    Pastor Baker. I think it is extremely important. Because I 
think what they did in the past they are not going to do today.
    Mr. Souder. They have discovered a higher purpose, and that 
is what we are talking about.
    Mr. Allen. Right. And I think the key is the radical change 
in lifestyle, may be a good way to put over. Because, you know, 
when you have been living on the streets or you're having 
substance abuse problems and we have men and women 20, 25 years 
and then suddenly they make a faith commitment and that is 
huge. That is a huge factor.
    And one of the reasons I demonstrated or talked briefly 
about the camp with 5 days which was a very strong gospel 
message right away through, that had a huge impact and you 
could actually trace that to the statistical change. And when 
you interviewed the men and women, that is what they will come 
out with. And, you know, we have to be honest about that, that 
is a huge part of the success rate.
    Also, the relationship with the jail that we talked about 
earlier, that really helps to connect them at the time when 
they come out, when you have an understanding with the 
Sheriff's Department or the jail or prison facilities. That is 
another big factor in being able to work with them from day 
one. But I would still say that the faith-based initiatives and 
the radical change in lifestyle has a massive impact on the 
success rate.
    And I have said before, when I was a probation officer we 
had very committed staff members, but in many cases we were 
sticking Band-Aids on situations. I wish we could have talked 
to them about our own Christian lifestyle and how that could 
impact them. We were prohibited from doing so by the 
government. But in this setting we are allowed to talk about 
that and we are allowed to offer voluntary church services and 
Bible studies which many of the men and women who are searching 
for a new way in life would actually participate in. And we see 
the effects and we see the results.
    Pastor Baker. I think another indicator of that would be, 
again, what I said about the wardens. They are seeing changes 
in prison in the way they act.
    Mr. Allen. Right.
    Mr. Souder. Yes. One of the more compelling testimonies 
that we have had, is that we had this young guy who is in 
Chicago who spent his earnings and his time, he has just 
decided to go out. And he goes out on the street and has done 
this for years with a few others. It's a Catholic ministry that 
tires to get men who are male prostitutes to change. And one of 
the Democratic Members just put him under heavy cross 
examination whether he had to have faith as a component. And 
finally he says if you do not change them, you know, what 
reason am I giving that they are doing is wrong to get them off 
the street if I do not have a compelling reason.
    Now, that is one of the real value judgment things that 
those who agree with that are going to agree with. Those who do 
not believe necessarily it was wrong to: (a) be a prostitute or 
a male prostitute questioned the whole premise of the program. 
And it is just really interesting to struggle with.
    Mr. Gold, I will let you have a word here. Because you come 
to all this, interestingly, because you came from outside the 
social service and went in and are looking at it more like a 
business guy. When I first went with the Children and Family 
Committee, I came out of the furniture retailing business and I 
wander in there, and the first thing I see is there is little 
outcome accountability, messy bookkeeping, people constantly 
still come up to me and say, yes, but if we invest this much 
into preventing the delinquency, we will save this much from 
going to prison. Yes, but the problem is that many of those 
kids work it out. And if you spend it up front on 10 and 8 of 
them would have worked it out on their own, the fact that it 
costs the government more than if you put it in. But the math 
is bad.
    The motives are wonderful. What do you see are some of the 
things as we look at the these type of organizations between 
faith-based organizations that we should be looking at from the 
standpoint of investing taxpayer's money in the most effective 
ways that you have seen come in?
    Mr. Gold. Well, let me first say that everyone on this 
panel does beautiful work, and I agree that in a lot of the 
programs that are being run, the carrot that is dangled to try 
to get these people to change has to be there. I would not ever 
disagree with that.
    I, obviously, come from a little bit of a different 
perspective in Judaism that has never been one of evangelism 
and spreading the Word, so it is slightly different for me 
ideologically. But I am also sort of walking the line of 
running this organization, like you said earlier, there is your 
personal belief and then there is your role as a public 
servant.
    My personal belief is that the government should not cross 
a very fine line. I do believe that programs like everything 
that is done here on this table need to exist to create a 
safety net in the fabric and infrastructure of society to keep 
us all sane and keep the world from crumbling. But I do believe 
that where the government should invest its resources and 
energy is in teaching how to fish and not doing the fishing. 
And I believe, and this could be quite controversial, that the 
minute the government begins investing too heavily in funding 
sources for organizations, whether they be faith-based or not, 
is the day we become entirely too dependent on them.
    I think that there are several articles and several studies 
that have been done recently, and even there is significant 
rounding areas in these studies like McKinsey did one on the 
capacity that exists within America, I think it ended up in the 
hundreds of billions of excess capacity and it could convert to 
$40,000 for each child to go to college or something like that; 
of the waste that exists in the nonprofit industry. That is the 
biggest thing I have noticed in making this transfer into this 
nonprofit world is the lack of efficiency.
    I think if some things could be done, there are some great 
ideas tossed around earlier about resources for nonprofits. I 
think if we could create an environment where nonprofits could 
focus on their core competency in terms of serving the program 
and not in the areas of administrative, HR benefits, learning 
how to write grants and all these things. Their areas should be 
focused on selling their program and raising money and in 
exchange for that I think those would be dollars spent better 
long term. I think it is fine to throw some money at it today. 
I think a couple generations from now if the government has 
crossed the line of funding a program in the prisons, for 
instance, while it may be working and I believe that the 
success rates have probably proven that it does, I am not sure 
that is where the government should invest its dollars.
    Our organization does not get government funding. I think 
we have many success stories as well about investing in the 
life of a child. And one of the testaments to our program is 
having young kids that come back, some kids of these 
neighborhoods right here in Watts and some very tough 
neighborhoods that come back for our program year after year 
and then end up getting up on the right track because we 
invested, and they only come to camp for 1 week over the course 
of a summer. But over the course of several years, they believe 
in themselves because we have built up their self-esteem and it 
is the one highlight of their year. They go on to college.
    And one kid in particular came back last summer to be a 
counselor for us. He had put himself through college and got an 
aerospace engineering degree. And instead of graduating in May 
and taking a $80,000 a year job, he decided to come back and 
spend one more summer with us as a counselor to invest in the 
same kids that he used to be like. There is no faith involved 
in that from our perspective as an organization. We do not 
spread the Word of God. We do not work that way, that is just 
not the culture of our organization.
    So I think that there are many, many organizations out 
there like ours, and many of these on our panel today as well, 
that could benefit better from resource efficiencies.
    There is a huge issue that I am sure Congress is looking at 
now, the generation of wealth transference that is about to 
occur in the next 20 years and the trillions of dollars that if 
we deployed into our economy in the nonprofit world would be so 
better spent. I am from the State of Hawaii.
    Hawaii has probably one of the worst State governments in 
the country. They got themselves so fixed, the economy got so 
bloated based on tax revenue requirements that they cannot get 
themselves out. It is like a heroin addict. They cannot get out 
of it. They just keep having to come back to the well. And they 
have taxed so many businesses out of the State.
    So my only fear is that if you just put my own personal 
belief system aside of the separation of church and State, I 
see it more as an issue of efficiency and long term viability 
for many organizations and not tapping the government resources 
for funding today, but resources for tomorrow, infrastructure 
issues. Setting up--what was the name of that? Community 
Partners here in L.A. I had actually never heard of that. Doing 
some kind of a regionalized system similar to the regional 
neonatal intensive care units that exist for babies with birth 
defects. I mean, setting up a regionalized system of something 
like Community Partners for organizations to go to, I think 
that would free up millions and billions of dollars that the 
government would not have to tax or find tax credits or play 
cat and mouse games with.
    Pastor Baker. Could I respond to that?
    Mr. Souder. Yes. And what I will do is if each of you have 
any concluding comments and then anything else you want to 
submit for the record.
    Pastor Baker. I would just like to thank you for being 
invited today. And just to kind of put my spin on that, is that 
the State and the Federal Government are already spending money 
when 8 out of 10 prisoners come back. It cost a lot of money to 
warehouse somebody in prison.
    I will leave it at that.
    Mr. Souder. Mr. Allen.
    Mr. Allen. I would just like to respond and say I would 
agree about the teach the man to fish philosophy. I think we 
all sitting around this table are agreeing with that, very much 
in support of the continuing care. When people come into a 
program, we are looking to make a real impact and we want to 
see solutions, we do not just want to perpetuate the problem.
    And it gets back to what you said earlier about 
possibilities of initiatives with faith-based programs where we 
would be looking out. I would very much support that. That if 
we can demonstrate through outcomes and through what we have 
achieved through the programs, I think that would be a huge 
step forward.
    Mr. Souder. Dr. Phillips.
    Mr. Phillips. Well, I would even go a step further.
    Mr. Souder. If you could come up with another 17 things, 
that would be great, too. I can see the staff panicking.
    Mr. Phillips. I can do that. Rather than just teach a man 
to fish, we would like to help him buy the pond. Because they 
buy into the system and there are entrepreneurial instincts and 
everybody in this neighborhood. If we can help that, it starts 
to turn things around.
    The government can help, though, with some of these very 
specific things. And while you said it is really hard to 
measure preventative stuff, I would say in response to that to 
quote Christy Mathison, the great baseball player, ``It is a 
lot easier to build a boy than to remake a man.'' And so when 
you are looking at schools, systemically, when you are looking 
at vocational training, especially with young people who are 
growing up today who want to work, but because of minimum wage 
laws, child labor laws and if they have not got an uncle or an 
employer friend or a mom or a dad who owns a business, it is 
pretty tough. There are things there that the government can 
grease the wheels, and allow us to do positive things, that in 
the long run is extremely cost effective.
    I think there ought to be some sort of a partnership. Tax 
dollars are generated for most of us in this room. And to come 
back with efficiency in that in order to help touch the poor, 
to redeem, to empower, to equip the poor is not only a very 
Biblical thing, it is a very American thing.
    Mr. Souder. Mr. Hooten.
    Mr. Hooten. Yes, sir. I would like to respond specifically 
to the question that you asked about faith orientation if 
blatant faith orientation or a lack of it would impact the 
effectiveness of what we do. And I would say, yes, Azusa 
Pacific would not have the requirement that it has if it were 
not a Christian university. It was founded in 1899 as a 
training school for Christian workers. And that is how we 
maintain our identity is through that.
    Also, on the subject of identity, Aristotle when describing 
virtue wrote that virtue means fulfilling one's intended 
purpose. And in that sense of the word or in that understanding 
of the word virtue, a virtuous knife is one that cuts well.
    And so the question that we ask at APU and I can speak for 
Christian organizations that I work with, what does it mean for 
us to fulfill our intended purpose? And that is why I think we 
see changes in people, in prisoner's lives or the people that 
we work with who are homeless who can get off crack and things 
that I think otherwise would destroy them is because they have 
discovered their intended purpose. And so not only in the 
community that we are serving, but the student population we 
have I work very hard to remind them of their intended purpose. 
Because many of them have come from Christian organizations 
that have not taught them the identity that we shared about, 
that who we really are meant to be. And that doesn't mean that 
we go out with words in my opinion first, but we go out with 
actions and love. And then when relationships are developed, we 
can talk about those things that sustain us and really give us 
purpose.
    Mr. Souder. Well, I thank you all for taking time out of 
your busy schedule.
    Let me just share a couple of closing thoughts here. You 
are kind of getting to see some of the sausage making of 
government. But when we had a meeting with Steve Goldsmith when 
George Bush was running for President with Senator Santorum, 
Congressman Pitts and I, and Steve Goldsmith said what he was 
having trouble figuring out is why we could not move this type 
of legislation through Washington. What is the problem? And my 
answer, which has proven to be true again as they have had to 
back up a little bit, is that there is no clear constituency. 
That the Republican Party is mostly suburban and rural base and 
it likes faith-based ideas as long as it seems to be 
transferring funds to those Members' districts. But when it 
goes to the urban poor, they are not as excited about the 
issue. The Democrats do not like the idea as much about the 
faith-based. And even though it gives more money to the urban 
poor, they are concerned about separation of church and State 
to a higher degree.
    Therefore, this issue does not have a large constituency. 
But it keeps in the public debate.
    And this is the one question that I believe is why we are 
able to make small incremental gains even if it is not going to 
be large. Because when I ask my Democratic colleagues, you 
know, it does not matter who is Governor of California, 
California is still broke. And there are only so many bonds 
they are going to be able to do. You can sit there and say we 
do not want to have faith-based organizations leveraging their 
funds in, but every juvenile probation officer is having their 
case load go up, everybody who is doing child abuse in the 
State is not putting in anymore money. And you can go across 
the whole nation and it does not matter if you have a 
Republican legislature or Democratic legislature, it does not 
matter what they ran on, the fact is that social service 
spending is flat and barely able to keep up at a time when we 
are having more family disorientation, huge immigration groups 
come in with the economy going up and down. So the question is 
how are we going to address is.
    And that a segment of the faith community, whether those 
who disagree or not, are not going to come to the table unless 
there are some accommodations.
    Now at the same time the faith community needs to 
understand what the target is here. And I want to pay personal 
tribute here to Dr. Phillips, because he has had a big impact 
on my life and many others. Because there is a very small group 
of people who have kept these issues alive for a long time.
    And when we were in Newark, Judith Kemp was with me whose 
Dad is Jack Kemp. And his mom for the record had as kids talked 
as a family discussion about giving money to World Impact and 
their importance of commitment to the poor in their family.
    Now, it is not a surprise that when Jack Kemp became head 
of HUD, he was one of the first people that initiated from the 
Republican side some of the urban poverty questions and had 
this. And that he and that some of the people in the Bush 
administration who are implementing these programs have had 
some long interaction with this. And it is not whether it gets 
votes. It is not whether it is politically popular to do. It is 
a question of how else do you propose to do it if you are in 
the public sector. And then as individuals do you believe we in 
fact are commanded to help the rich or the poor?
    And there is just not enough of a sentiment yet, and what I 
am hoping and if you have anything to add to these lists, the 
great advantage of specifics is that we have a bill out there 
that in actuality the three people, four people who were most 
opposed to the faith-based legislation, Congressman Bobby Scott 
from Virginia, Chet Edwards from Texas, Jerry Nadler from New 
York and I'm blanking on the fourth right now. And I and a 
couple of the primary advocates sat down, and once we took the 
direct funding out, they agreed to go along with training and 
building the ability to seek grants for faith-based 
organizations from foundations, for example, and training 
capacity things. I think we can maybe sell them on a couple of 
these type of things. Some of them they will not, some of them 
they will. But when the politics erupted, they got flak from 
the left even though they were all great ACLU card carrying 
members, and we got flak from the right. And the President 
basically tried to move forward the way it is. But I think they 
are open to some as we try to work this through. Because the 
truth is: one, it's working, and; two, we don't have a whole 
ton of other options. And you said it really well. You didn't 
even slip in what people really need is a purpose driven life.
    Pastor Baker. I didn't.
    Mr. Souder. In fact, in trying to focus people, that is one 
of the things we do. And there is no way if you can communicate 
to each of the students who volunteer, your staffers, the 
people at the Salvation Army who are down there both 
volunteering and working everyday, the kids out being Big 
Brothers and Big Sisters to kids who do not have it and to all 
the people down in the prisons who are trying to help people 
from destroying their families with drugs and alcohol abuse, 
the thanks from the government which they do not often get.
    I met a man from InterVarsity in Newark. I was visiting 
Carolyn Wallace I think who had an outreach there. But this guy 
was from InterVarsity and had spent, if I recall, nearly 30 
years of life and had not had a day's vacation and basically 
ran this home for 30 years. And what he told me is I came here 
to save the East coast, then it was New Jersey, then it was 
Newark, then it was South Newark, then it was the neighborhood, 
then it was the block, then if I can get to one kid at a time. 
And it is people like that that show how we can give them the 
incentives, how we can say thanks that really makes a 
difference.
    So thanks for being part of this process. We would welcome 
any further input you have as we go through.
    The hearing stands adjourned.
    [Whereupon, at 3:24 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4157.035

[GRAPHIC] [TIFF OMITTED] T4157.036

[GRAPHIC] [TIFF OMITTED] T4157.037

[GRAPHIC] [TIFF OMITTED] T4157.038

[GRAPHIC] [TIFF OMITTED] T4157.039

[GRAPHIC] [TIFF OMITTED] T4157.040

[GRAPHIC] [TIFF OMITTED] T4157.041

[GRAPHIC] [TIFF OMITTED] T4157.042

[GRAPHIC] [TIFF OMITTED] T4157.043

[GRAPHIC] [TIFF OMITTED] T4157.044

[GRAPHIC] [TIFF OMITTED] T4157.045

[GRAPHIC] [TIFF OMITTED] T4157.046

[GRAPHIC] [TIFF OMITTED] T4157.047

[GRAPHIC] [TIFF OMITTED] T4157.048

[GRAPHIC] [TIFF OMITTED] T4157.049

[GRAPHIC] [TIFF OMITTED] T4157.050

[GRAPHIC] [TIFF OMITTED] T4157.051

[GRAPHIC] [TIFF OMITTED] T4157.052

[GRAPHIC] [TIFF OMITTED] T4157.053

[GRAPHIC] [TIFF OMITTED] T4157.054

[GRAPHIC] [TIFF OMITTED] T4157.055

[GRAPHIC] [TIFF OMITTED] T4157.056

[GRAPHIC] [TIFF OMITTED] T4157.057

[GRAPHIC] [TIFF OMITTED] T4157.058

[GRAPHIC] [TIFF OMITTED] T4157.059

[GRAPHIC] [TIFF OMITTED] T4157.060

[GRAPHIC] [TIFF OMITTED] T4157.061

[GRAPHIC] [TIFF OMITTED] T4157.062

[GRAPHIC] [TIFF OMITTED] T4157.063

[GRAPHIC] [TIFF OMITTED] T4157.064

[GRAPHIC] [TIFF OMITTED] T4157.065

[GRAPHIC] [TIFF OMITTED] T4157.066

[GRAPHIC] [TIFF OMITTED] T4157.067

[GRAPHIC] [TIFF OMITTED] T4157.068

[GRAPHIC] [TIFF OMITTED] T4157.069

[GRAPHIC] [TIFF OMITTED] T4157.070

[GRAPHIC] [TIFF OMITTED] T4157.071

[GRAPHIC] [TIFF OMITTED] T4157.072

[GRAPHIC] [TIFF OMITTED] T4157.073

[GRAPHIC] [TIFF OMITTED] T4157.074

[GRAPHIC] [TIFF OMITTED] T4157.075

[GRAPHIC] [TIFF OMITTED] T4157.076

[GRAPHIC] [TIFF OMITTED] T4157.077

[GRAPHIC] [TIFF OMITTED] T4157.078

[GRAPHIC] [TIFF OMITTED] T4157.079

[GRAPHIC] [TIFF OMITTED] T4157.080

[GRAPHIC] [TIFF OMITTED] T4157.081

[GRAPHIC] [TIFF OMITTED] T4157.082

[GRAPHIC] [TIFF OMITTED] T4157.083

[GRAPHIC] [TIFF OMITTED] T4157.084

[GRAPHIC] [TIFF OMITTED] T4157.085

[GRAPHIC] [TIFF OMITTED] T4157.086

[GRAPHIC] [TIFF OMITTED] T4157.087

[GRAPHIC] [TIFF OMITTED] T4157.088

[GRAPHIC] [TIFF OMITTED] T4157.089

[GRAPHIC] [TIFF OMITTED] T4157.090

[GRAPHIC] [TIFF OMITTED] T4157.091

[GRAPHIC] [TIFF OMITTED] T4157.092

[GRAPHIC] [TIFF OMITTED] T4157.093

[GRAPHIC] [TIFF OMITTED] T4157.094

[GRAPHIC] [TIFF OMITTED] T4157.095

[GRAPHIC] [TIFF OMITTED] T4157.096

[GRAPHIC] [TIFF OMITTED] T4157.097

[GRAPHIC] [TIFF OMITTED] T4157.098

[GRAPHIC] [TIFF OMITTED] T4157.099

[GRAPHIC] [TIFF OMITTED] T4157.100

[GRAPHIC] [TIFF OMITTED] T4157.101

[GRAPHIC] [TIFF OMITTED] T4157.102

[GRAPHIC] [TIFF OMITTED] T4157.103

[GRAPHIC] [TIFF OMITTED] T4157.104

[GRAPHIC] [TIFF OMITTED] T4157.105

[GRAPHIC] [TIFF OMITTED] T4157.106

[GRAPHIC] [TIFF OMITTED] T4157.107

[GRAPHIC] [TIFF OMITTED] T4157.108

[GRAPHIC] [TIFF OMITTED] T4157.109

[GRAPHIC] [TIFF OMITTED] T4157.110

[GRAPHIC] [TIFF OMITTED] T4157.111

[GRAPHIC] [TIFF OMITTED] T4157.112

[GRAPHIC] [TIFF OMITTED] T4157.113

[GRAPHIC] [TIFF OMITTED] T4157.114

[GRAPHIC] [TIFF OMITTED] T4157.115

[GRAPHIC] [TIFF OMITTED] T4157.116

[GRAPHIC] [TIFF OMITTED] T4157.117

[GRAPHIC] [TIFF OMITTED] T4157.118

[GRAPHIC] [TIFF OMITTED] T4157.119

[GRAPHIC] [TIFF OMITTED] T4157.120

[GRAPHIC] [TIFF OMITTED] T4157.121

[GRAPHIC] [TIFF OMITTED] T4157.122

[GRAPHIC] [TIFF OMITTED] T4157.123

[GRAPHIC] [TIFF OMITTED] T4157.124

[GRAPHIC] [TIFF OMITTED] T4157.125

[GRAPHIC] [TIFF OMITTED] T4157.126

[GRAPHIC] [TIFF OMITTED] T4157.127

[GRAPHIC] [TIFF OMITTED] T4157.128

[GRAPHIC] [TIFF OMITTED] T4157.129

[GRAPHIC] [TIFF OMITTED] T4157.130

[GRAPHIC] [TIFF OMITTED] T4157.131

[GRAPHIC] [TIFF OMITTED] T4157.132

[GRAPHIC] [TIFF OMITTED] T4157.133

[GRAPHIC] [TIFF OMITTED] T4157.134

[GRAPHIC] [TIFF OMITTED] T4157.135

[GRAPHIC] [TIFF OMITTED] T4157.136

[GRAPHIC] [TIFF OMITTED] T4157.137

[GRAPHIC] [TIFF OMITTED] T4157.138

[GRAPHIC] [TIFF OMITTED] T4157.139

[GRAPHIC] [TIFF OMITTED] T4157.140

[GRAPHIC] [TIFF OMITTED] T4157.141

[GRAPHIC] [TIFF OMITTED] T4157.142

[GRAPHIC] [TIFF OMITTED] T4157.143

[GRAPHIC] [TIFF OMITTED] T4157.144

                                 <all>

</pre></body></html>
